<html>
<title> - BEYOND IRAQ: REPERCUSSIONS OF IRAQ STABILIZATION AND RECONSTRUCTION POLICIES</title>
<body><pre>[Senate Hearing 108-167]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-167

  BEYOND IRAQ: REPERCUSSIONS OF IRAQ STABILIZATION AND RECONSTRUCTION 
                                POLICIES

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              JUNE 12, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


90-076              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     6
Galbraith, Hon. Peter W., distinguished fellow, Institute for 
  International and Strategic Studies, National Defense 
  University, Washington, DC.....................................     7
    Prepared statement...........................................    11
Kemp, Dr. Geoffrey, director, Regional Strategic Programs, The 
  Nixon Center, Washington, DC...................................    15
    Prepared statement...........................................    20
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Wisner, Hon. Frank G., vice chairman, External Affairs, American 
  International Group, New York, NY..............................    25
    Prepared statement...........................................    28

                                 (iii)

  

 
                   BEYOND IRAQ: REPERCUSSIONS OF IRAQ
                    STABILIZATION AND RECONSTRUCTION
                                POLICIES

                              ----------                              


                        THURSDAY, JUNE 12, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Alexander, Sununu, Biden, and 
Feingold.
    The Chairman. The meeting of the Foreign Relations 
Committee is called to order. This is the third of a series of 
hearings on the post-conflict Iraq situation. During our first 
two hearings, administration witnesses identified the needs and 
problems in rebuilding Iraq, and outlined the administration's 
responses. Those hearings have given the American public and 
the Congress insight into the complex decisions involved in 
formulating United States policies in post-conflict Iraq.
    Today, the Foreign Relations Committee will hear from 
expert witnesses from outside the Bush administration. And we 
welcome Ambassador Peter Galbraith, from the National Defense 
University, a long-time associate of this committee, and, of 
course, a former Ambassador; and Dr. Geoffrey Kemp, director of 
Regional Strategic Programs at The Nixon Center, who was very 
helpful to the committee prior to Iraq, and we look forward to 
his comments, especially at this juncture; and Ambassador Frank 
G. Wisner, co-chair of the Council on Foreign Relations Task 
Force, which recently published the report, ``Iraq: The Day 
After,'' an extensive and very important contribution. 
Ambassador Wisner is a many-time participant in our hearings, a 
long-time friend of all of us. We're delighted that all three 
of you are here to share your wisdom this morning.
    Each of these experts has a wealth of experience and 
knowledge on Iraq, the Middle East region, and United States 
foreign policy. We've asked them to examine our policies and 
our plans in Iraq from three perspectives.
    First of all, how should the United States deal with 
domestic issues in Iraq and in other Middle Eastern countries; 
in particular, how can we promote the prospects for democracy 
or stability or economic reform, all simultaneously? And, 
second, what are the repercussions of United States' policies 
in Iraq on regional political and economic issues, on 
traditional regional alignments, and on the evolving Middle 
East peace process in which the President has become very, very 
much involved in recent days?
    Finally, what is the likely impact of our policies in Iraq 
on broader foreign policy concerns, including the war on 
terrorism, nonproliferation efforts, generally, and our 
relations with the United Nations, our NATO allies, and other 
nations?
    The ramifications of United States' policies in Iraq go far 
beyond the Iraqi people or Iraqi territory. Nations throughout 
the Middle East, including regimes that have supported 
terrorists, are assessing how the United States and coalition 
reconstruction of Iraq will affect their own interests. An 
American presence in Iraq that is devoted to achieving 
democracy and a healthy economy puts enormous pressure on 
states in the region to undertake reform. It improves our 
ability to encourage the transformation of repressive 
countries, such as Iran and Syria, and to promote the 
liberation of minorities across the Middle East. The 
achievement of democracy and a sound economy in Iraq could 
dispel growing anti-Americanism and dampen Islamic extremism 
and terrorism. It could raise expectations in the region for 
general economic growth, personal freedom, and women's rights. 
By improving the United States' credibility and underscoring 
the benefits of participation in a global economy, success in 
Iraq could also provide added impetus for a permanent 
diplomatic resolution to the Arab-Israeli conflict.
    These opportunities will not be realized if we fail in 
Iraq. In the worst case scenario, an ineffective or 
unsuccessful reconstruction effort could lead to sustained 
civil unrest or even open civil war between ethnic or religious 
factions. In that event, Middle East states might become more 
repressive, more entrenched, their populations more divided and 
extremist. Anti-American sentiments already festering could 
spread, leading to an increased threat of terrorism.
    As we work to reconstruct Iraq, we must prepare for 
unintended consequences of our efforts. And this, the committee 
has stressed during the chairmanship of my distinguished 
colleague, Senator Biden, last year, and during the extensive 
discussion of Iraq which we have had this year. If United 
States' policies inspire more agitation for democracy in Iran, 
for instance, a crackdown by the mullahs might ensue. In Egypt, 
Jordan, and Saudi Arabia, while reformers may be strengthened, 
existing divisions might be intensified, leading to instability 
in countries that have long been friends of the United States. 
These states already face demographic pressures, stagnant 
economic growth, uncertain political succession, and smoldering 
regional disputes, which threaten to undercut stability. None 
of this, in my judgment, should dissuade us from pursuing the 
most aggressive and effective reconstruction and reform agenda 
possible in Iraq, but we must be flexible enough to deal with 
problems and consequences, and farsighted to see those 
consequences throughout the region.
    Achieving ambitious goals in Iraq and the Middle East will 
require that we act with both patience and a sense of urgency. 
We must understand that our prospects for success depend 
greatly on what we do in the next several months. Right now, we 
are at a critical stage in that reconstruction, and no expense 
should be spared to show signs of progress and to demonstrate 
our commitment. But we must also keep in mind Deputy Secretary 
Wolfowitz's admonition to avoid unrealistic expectations. 
Success may not be instant, and we have to be prepared to stay 
in Iraq as long as necessary to win the peace. And if the 
international community knows that the United States will not 
run out of patience in Iraq, we may find it easier to generate 
contributions that reduce our burdens and to gain support for 
our diplomatic initiatives.
    The military victory in Iraq has presented us with a once-
in-a-generation opportunity to help remold the Middle East. We 
must speak frequently to the American people about the costs 
and benefits of seizing this opportunity. Historically, 
Americans have been anxious to disengage from postwar 
commitments. This impulse is understandable; but, in the case 
of Iraq, we do not have the luxury of disengaging after the 
battles have been fought. It would be irresponsible and 
contrary to our own national security interests to walk away 
from Iraq before it becomes a dependable member of the world 
community. We would provide an incubator for terrorist cells 
and activity.
    The American people know this. A recent poll by the Program 
on International Policy Attitudes found that an overwhelming 86 
percent said the United States has, ``the responsibility to 
remain in Iraq as long as necessary until there is a stable 
government.'' And nearly as many, 73 percent, said that pulling 
out prematurely, ``would be unwise and immoral.'' As leaders, 
the President and Congress must make the case for why we are 
risking American lives and spending American resources in Iraq. 
We may spar over particular policy decisions, but we must not 
let partisanship or inattention undermine the basic United 
States' commitment to rebuilding and democratizing the country.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    This is the third in a series of hearings on post-conflict Iraq. 
During our first two hearings, administration witnesses identified the 
needs and problems in re-building Iraq and outlined the 
administration's responses. Those hearings gave the American public and 
Congress insight into complex decisions involved in formulating U.S. 
policies in post-conflict Iraq.
    Today, the Foreign Relations Committee will hear from expert 
witnesses from outside the Bush administration. We welcome Ambassador 
Peter Galbraith, from the National Defense University, Dr. Geoffrey 
Kemp, Director of Regional Strategic Programs at the Nixon Center, and 
Ambassador Frank G. Wisner, a co-chair of the Council on Foreign 
Relations Task Force, which recently published the Report: ``Iraq: The 
Day After.''
    Each of these experts has a wealth of experience and knowledge on 
Iraq, the Middle East region, and U.S. foreign policy. We have asked 
them to examine U.S. policy and plans in Iraq from three perspectives:
    First, how should the United States deal with domestic issues in 
Iraq and in other Middle Eastern countries? In particular, how can we 
promote the prospects for democracy, stability, and economic reform?
    Second, what are the repercussions of U.S. policies in Iraq on 
regional political and economic issues, on traditional regional 
alignments, and on the evolving Middle East Peace process?
    Finally, what is the likely impact of our policies in Iraq on 
broader foreign policy concerns, including the war on terrorism; non-
proliferation efforts; and our relations with the United Nations, NATO 
allies, and other nations?
    The ramifications of U.S. policies in Iraq go far beyond the Iraqi 
people or Iraqi territory. Nations throughout the Middle East, 
including regimes that have supported terrorists, are assessing how 
U.S. and Coalition reconstruction of Iraq will affect their own 
interests. An American presence in Iraq that is devoted to achieving 
democracy and a healthy economy puts enormous pressure on states in the 
region to undertake reform. It improves our ability to encourage the 
transformation of repressive countries such as Iran and Syria and to 
promote the liberation of minorities across the Middle East. The 
achievement of democracy and a sound economy in Iraq could dispel 
growing anti-Americanism and dampen Islamic extremism and terrorism. It 
could raise expectations in the region for general economic growth, 
personal freedom, and women's rights. By improving U.S. credibility and 
underscoring the benefits of participation in the global community, 
success in Iraq could also provide added impetus for a permanent 
diplomatic resolution to the Arab-Israeli conflict.
    But these opportunities will not be realized if we fail in Iraq. In 
the worst case, an ineffective or unsuccessful reconstruction effort in 
Iraq could lead to sustained civil unrest or even open civil war 
between ethnic or religious factions. In that event, Middle East states 
might become more repressive and entrenched, their populations more 
divided and extremist. Anti-American sentiments, already festering, 
could spread, leading to an increased threat of terrorism.
    As we work to reconstruct Iraq, we must prepare for unintended 
consequences of our efforts. If U.S. policies inspire more agitation 
for democracy in Iran, for instance, a crackdown by the mullahs might 
ensue. In Egypt, Jordan, and Saudi Arabia, while reformers may be 
strengthened, existing divisions may be intensified, leading to 
instability in countries that have long been friends of the United 
States. These states already face demographic pressures, stagnant 
economic growth, uncertain political succession, and smoldering 
regional disputes, which threaten to undercut stability. None of this 
should dissuade us from pursuing the most aggressive and effective 
reconstruction and reform agenda possible in Iraq, but we must be 
flexible enough to deal with problems and consequences throughout the 
region.
    Achieving ambitious goals in Iraq and the Middle East will require 
that we act with both patience and a sense of urgency. We must 
understand that our prospects for success depend greatly on what we do 
for the next several months. Right now, we are at a critical stage in 
Iraqi reconstruction, and no expense should be spared to show signs of 
progress and to demonstrate our commitment. But we also must keep in 
mind Deputy Secretary Wolfowitz's admonition to avoid unrealistic 
expectations. Success may not be instant, and we have to be prepared to 
stay in Iraq as long as necessary to win the peace. If the 
international community knows that the United States will not run out 
of patience in Iraq, we will find it easier to generate contributions 
that reduce our burdens and to gain support for our diplomatic 
initiatives.
    The military victory in Iraq has presented us with a once-in-a-
generation opportunity to help remold the Middle East. We must speak 
frequently to the American people about the costs and benefits of 
seizing this opportunity. Historically, Americans have been anxious to 
disengage from postwar commitments. This impulse is understandable, but 
in the case of Iraq we do not have the luxury of disengaging after the 
battles have been fought. It would be irresponsible--and contrary to 
our own national security interests--to walk away from Iraq before it 
becomes a dependable member of the world community. We would provide an 
incubator for terrorist cells and activity.
    The American people know this. A recent poll by the Program on 
International Policy Attitudes found that an overwhelming 86 percent 
said the United States has ``the responsibility to remain in Iraq as 
long as necessary until there is a stable government,'' and nearly as 
many, 73 percent, said that pulling out prematurely ``would be unwise 
and immoral.'' As leaders, the President and Congress must make the 
case for why we are risking American lives and spending American 
resources in Iraq. We may spar over particular policy decisions, but we 
must not let partisanship or inattention undermine the basic U.S. 
commitment to rebuilding and democratizing Iraq.

    The Chairman, It's my privilege to turn now to the 
distinguished ranking member, Senator Biden, for his opening 
statement.
    Senator Biden. Thank you very much, Mr. Chairman. As is 
often stated on the floor of the Senate, I'd like to associate 
myself with your remarks, in the interest of time. You've 
covered all, or most of all, of what I had planned on saying in 
my opening statement, and it will not surprise our witnesses 
we're in agreement, you and I, on this subject.
    I would like to emphasize just two, maybe three, points. 
One is, the poll results you cited are encouraging. I have been 
of the view--and you know this well; you share the same view--
the American people are prepared to do whatever they are told 
or convinced is in the interest of the United States, including 
making sacrifices.
    We are going to see more body bags come home. They're going 
to come in dribs and drabs, as we both, you and I, predicted 
last October. If we have only American uniforms guarding oil 
fields, guarding buildings, guarding checkpoints, maintaining 
peace and order, it's inevitable. And it's a heck of a price to 
pay, but it's an inevitable price to pay.
    It's also going to cost us and the world community, God 
willing, if we do this right, billions of dollars. There's not 
enough oil in Iraq to provide for all of the needs, let alone 
the billeting of our troops in that country for the expected 
time. And that expected time, of most informed observers, is a 
whole lot more than a year, and less than 10. Everybody can 
argue in between, but nobody is, any longer, talking about 
being able to bring American forces home in the near term.
    And which leads me to the primary point that I wish to make 
and I hope our witnesses will speak to, and that is that, as I 
said, I firmly believe if you tell the American people the 
facts, they will do whatever it takes, and they're prepared to 
do it. One of the things that this notion about Deputy 
Secretary Wolfowitz saying, ``We cannot have unrealistic 
expectations''--the American people have no real good 
expectation yet, because they have not been told yet, by the 
President or others, what is likely to be expected of them, 
other than the generic phrase, ``We'll stay as long as it 
takes.'' And we're soon going to find, I predict, that an awful 
lot of those National Guard units in Delaware and Indiana and 
California and Wisconsin and all over the United States, who 
are there, who are now being extended for another 6 months and 
8 months and 4 months--you're going to find that, in the 
neighborhoods back home, people are going to want a broader, 
clearer explanation of what is expected and what it's going to 
take.
    And so I'm going to ask, at some point, not that any of the 
three are military experts, but what are the realistic 
expectations of how long we are going to be deeply involved, 
whether that means with 75,000 forces or where we have now over 
160,000 forces, or whether that means with large numbers of 
deployed MPs, or whatever it means, just what are we talking 
about here? What do these three experts think we're talking 
about here, in terms of duration? In broad terms. Broad terms. 
I'm not looking for someone to say ``16 months and 4 days,'' or 
``9 years and 2 months,'' but just in broad terms.
    And the other point that I'd like to make, and I'll cease, 
is, before the war, we heard a great deal of discussion about 
the so-called democracy domino theory. And I'd like to hear our 
witnesses talk about what impact they think will occur in the 
region if we handle the situation in Iraq well, as it relates 
to democratization in the region, and what is the impact--it's 
a version of which you said, Mr. Chairman--if we do not get it 
right.
    And, most importantly, I'd like to know, from these three 
men, who I have an inordinate amount of respect for--I mean, 
they've been before this committee, and I count two of them as 
personal friends, because I've known them longer and I've known 
them more intimately--I'd like to know what you all think 
constitutes success in post-Saddam Iraq. What is it? Because we 
talk about democratization, we talk about stability, we talk 
about--we use a lot of phrases, but I'm not sure what we really 
mean by what constitutes success.
    For me, the notion of being able to have a democratic--a 
liberal, democratic government in Iraq in the near term would 
be difficult even if the Lord Almighty came down and sat at the 
witness table and told us every single decision to make. I 
think it would be difficult, even with divine guidance. But I 
do think it's possible to have a stable democracy, to 
paraphrase a delegate from Pennsylvania at the Continental 
Convention, that ``squints toward democracy,'' one that is more 
of a republic, that has a growing and sustained respect for 
human rights, for the rule of law, for the marketplace. But I 
think that's a pretty tall order, all by itself.
    So, in conclusion, I'd like to get a sense, at some point, 
from the witnesses, what they think would constitute success in 
Iraq. And, again, we have a number of specific questions, all 
of us.
    I really am grateful to the three of you for being here. 
We've called on you many times, and the record should note that 
the chairman and I and others on this committee call on you 
personally, as well. Poor Dr. Kemp was sequestered in my office 
for about 2 or 3 hours this week, my asking his advice. I did 
the same with Peter. I've often done it with Frank. And so your 
commitment to trying to get this right, across party lines, in 
a bipartisan way, is something that is greatly appreciated and 
very much needed.
    So I thank you, Mr. Chairman. I'm anxious to hear our 
witnesses.
    [The opening statement of Senator Biden follows:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Chairman, I join you in welcoming our distinguished witnesses 
today.
    Last July and August, you and I held a comprehensive set of 
hearings on Iraq. One of the panels we convened was devoted to the 
subject of the regional context. In fact, Dr. Kemp testified on that 
panel.
    Clearly, the aftermath of hostilities in Iraq cannot be viewed in a 
vacuum. The ultimate success of our efforts to create a stable, 
representative government at peace with its neighbors will both 
influence and be influenced by the regional environment.
    A number of important American interests intersect in the Middle 
East--including the proliferation of weapons of mass destruction, the 
war on terrorism, the decades long goal of achieving Arab-Israeli 
peace, our nation's dependence on energy supplies, and the glaring 
absence of democracy in the Arab world.
    For better or worse, the United States is now a Middle Eastern 
power. In fact, we are the pre-eminent power. With 150,000 troops in 
Iraq and alliances stretching across the region, we have deeply vested 
interest in seeing the Middle East evolve in a positive direction.
    We look to our witnesses today to help us identify the choices we 
face and to offer guidance on the larger strategic focus of American 
policy in the region.
    Are Iraq's neighbors playing a constructive or destructive role? 
What objectives do the Syrians, Iranians, and Turks have?
    Could a different U.S. policy toward Iran have an impact on Iranian 
actions in Iraq? How would Iran react to an aggressive regime change 
policy? How would it respond to a policy of engagement? How will the 
composition of the next Iraqi government affect Iranian perceptions and 
behavior? More broadly, what should our policy be toward Iran?
    How should we conceive of security in the Persian Gulf? Should we 
expect to see the military competition between Iraq and Iran continue? 
How will the smaller states of the Gulf react to the new reality? Is it 
time to think of a new security architecture for the Gulf--if so, what 
would be its main elements?
    What is the best way to deal with Syria and get it out of the 
terrorism business and get it out of Lebanon? Can coercion alone work? 
Is there a credible alternative to the present regime in Damascus and 
how would that impact our interests?
    What is the best approach to take with respect to Saudi Arabia? 
What reforms can we realistically expect the Royal Family to take? What 
should our long-term posture be with respect to the Kingdom?
    Before the war we heard a great deal of discussion of the so-called 
``democracy domino theory.'' I'd like to hear what impact our witnesses 
think the war has had on regional attitudes toward democracy. What is 
the best way to advance democracy throughout the region?
    I'd also like to hear the assessment of our witnesses regarding the 
reconstruction effort in Iraq. Ambassador Wisner chaired a Council on 
Foreign Relations Task Force that produced a first-rate planning 
document for post-Saddam Iraq. Ambassador Galbraith, who served on the 
Committee staff for several years, was recently on the ground in Iraq 
for three weeks. And Dr. Kemp has consulted closely with Europeans and 
Arabs on the Iraq issue.
    Where in your judgment could we be doing better? Have we done 
enough to involve our friends and allies in the reconstruction and 
peacekeeping effort? What sort of political process would you design 
for the post-conflict transition?
    There is a lot of ground to cover and I look forward to your 
testimony.

    The Chairman. Well, thank you, Senator Biden.
    Let me indicate that we'll hear the witnesses in the order 
of, first of all, Ambassador Galbraith, then Dr. Kemp, and then 
Ambassador Wisner. All of your statements will be made a part 
of the record in full, so you need not ask for that to happen. 
It will. And each of you may proceed to summarize or 
extemporize, but present the ideas that you have in the most 
effective way possible. The Chair will be liberal in terms of 
the time that's required to do that, because the purpose of the 
hearing is to hear you, not to constrain you, but to make 
certain that your ideas are fully presented. And then we will 
have questioning by the members.
    Procedurally, there will be a rollcall vote, I am advised, 
on the Senate floor at 11 a.m. So, at that point, we probably 
will have completed the original testimony by the witnesses. 
We'll be into the questioning period. We'll take a short 
recess, so that members may vote, and then come back. We will 
ask for your patience during that recess.
    It's now a privilege to call upon you, Ambassador 
Galbraith, for your testimony.

  STATEMENT OF HON. PETER W. GALBRAITH, DISTINGUISHED FELLOW, 
  INSTITUTE FOR INTERNATIONAL AND STRATEGIC STUDIES, NATIONAL 
               DEFENSE UNIVERSITY, WASHINGTON, DC

    Ambassador Galbraith. Mr. Chairman, Senator Biden, Senator 
Feingold, Senator Alexander, as a former staff member of this 
committee, it is, of course, a real honor to be invited back to 
testify. I consider that the work I did for this committee in 
the 1980s and 1990s, documenting the atrocities of the Saddam 
Hussein regime, to have been some of the most important of my 
career. And what I talk about today draws on 20 years of 
experience with Iraq, as well as a 3-week trip I took shortly 
after American forces entered Baghdad, from April 13 to May 2 
of this year.
    I would note, for the record, that while I'm an employee of 
the Department of Defense at the National Defense University, 
my views do not necessarily reflect the views of those 
institutions.
    Operation Iraqi Freedom has transformed Iraq. Even Iraqis 
opposed to the American occupation embrace the result--that is 
the removal of Saddam Hussein. And, in 3 weeks, I saw many 
scenes of joyful liberation. Shi'ites exuberantly marching on a 
pilgrimage to Karbala, that had been banned for 27 years; Kurds 
posing for family pictures on ruined Iraqi tanks; picnickers 
playing soccer in the grounds of one of Saddam Hussein's vast 
palaces in Mosul; and ex-political prisoners banging away at 
toppled statues of the fallen dictator.
    And, everywhere, I saw the evidence of the horror of 
Saddam's regime. Men literally digging up corpses with their 
bare hands, names inscribed on dank cell walls of people 
shortly before being executed, and, everywhere, Iraqis holding 
faded pictures and scraps of paper as they searched for loved 
ones who had disappeared.
    Because of this exceptional record of genocide, murder, and 
cruelty, I believe President Bush's decision to remove this 
regime from power can be fully justified as a humanitarian 
intervention very similar to those the United States undertook 
in Bosnia and Kosovo in the 1990s.
    Unfortunately, U.S. goals in Iraq have been, in my view, 
seriously undermined by the conduct of the immediate postwar 
period. This includes the failure to stop the catastrophic 
looting of Baghdad, the slow pace of restoring essential 
services, and an uncertain and confused approach to postwar 
governance.
    When the United States entered Baghdad on April 9, it 
entered a city largely undamaged by a carefully executed 
military campaign. However, in the 3-weeks following the U.S. 
takeover, unchecked looting effective gutted every important 
public institution in the city, with the notable exception of 
the oil ministry.
    The physical losses include the National Library, which was 
looted and burned--equivalent to our Library of Congress, it 
held every book published in Iraq, all newspapers from the last 
century, as well as rare manuscripts; the Iraqi National 
Museum, where the losses number in the thousands, not as bad as 
we originally thought, but still large, and, in value, well 
over $100 million; banks; hospitals and public-health 
institutions; the universities in Baghdad and Mosul, where it's 
not just the equipment and furniture that was gone, but decades 
of academic research; and government ministries, almost all of 
which were looted and/or burned.
    Even more surprising, the United States failed to secure 
sites related to Iraq's weapons of mass destruction program or 
obvious locations holding important intelligence. Ten days 
after the Marines took over Baghdad, looters were banging open 
safes and setting fires in Iraq's unguarded Foreign Ministry. 
Important sites related to Iraq's WMD program, such as the 
Iraqi version of the Centers for Disease Control, or the 
Tuwaitha Nuclear Facility, were left unguarded and were looted.
    There is a remote chance that dangerous biological or 
radiological material could end up in the hands of terrorists. 
But what is fairly certain is that the United States lost vital 
information related to WMD procurement, Iraqi foreign-
intelligence activities, and possible links to al-Qaeda. I have 
described this in more detail in my prepared statement.
    The looting was both predictable--it happened in 1991--and 
at least partially preventable. In spite of meticulous planning 
for the warfighting, I saw no evidence of any plan to secure 
critical sites. Obviously, U.S. forces could not protect 
everything, but even the more limited forces that entered 
Baghdad could have protected more.
    The looting cost billions in property damage, demoralized 
educated Iraqis with whom we will want to work, and undermined 
Iraqi confidence and respect for the occupation authorities. 
This has complicated the task of the coalition provisional 
authority and, in my view, has likely increased the risk to 
U.S. personnel in the country.
    The fall of Saddam Hussein has left a political vacuum that 
the U.S. civilian authorities were slow to fill. General Garner 
did not arrive in Baghdad until 13 days after the Marines 
entered the city, and did not effectively set up operations for 
days after that. Even today, staff of the coalition provisional 
authority remain ensconced behind concertina wire in Saddam's 
palaces, traveling around Baghdad only with full military 
escort.
    The lack of preparation and planning, as well as the much-
publicized bureaucratic battles between agencies of the U.S. 
Government, have created confusion in the minds of Iraqis, and 
undermined confidence in the coalition. Early on, Garner and 
his team moved to reappoint prominent Ba'athists to top 
positions. Then, on May 16, Ambassador Bremer announced that 
all senior Ba'athists were disqualified from top posts. 
Similarly, General Garner traveled around Iraq promising that a 
representative assembly would soon be named to choose a 
provisional government. Ambassador Bremer reduced the Iraqi 
participation in the new administration to a small appointed 
advisory council. These radical changes in course contribute to 
an impression of incoherence.
    The first weeks of the U.S. occupation have shown the 
limits of American power in Iraq, and the missteps have served 
to limit American power in the country.
    In my judgment, any occupying power has a relatively short 
window before the goodwill generated by liberation is replaced 
by anger and frustration at the inevitable lack of progress in 
improving the quality of life for the people of the country. 
For the reasons outlined above, the United States may have an 
especially short window in Iraq.
    This, in my view, requires transferring real power to 
Iraqis as soon as possible. The problem is, which Iraqis?
    The coalition provisional authority should give up the 
search for mythical insiders who can help lead Iraq to 
prosperity and democracy. Unless we plan on staying in Iraq for 
the decade or more needed to develop alternative leadership, we 
must work with the leadership that exists. And these are the 
former exiles and the Kurdish leaders.
    Iraqis, even if exiles and Kurds, will have more local 
knowledge than the coalition authorities, enabling them to 
avoid some of the more obvious mistakes the Americans have 
made. And from the U.S. perspective, it is far better to have 
Iraqis blaming their own provisional government for the 
inevitable shortcomings of the occupation than for everyone to 
be blaming the United States.
    The long-term challenge facing the United States in Iraq is 
developing a democratic political system while holding the 
country together. Decades of dictatorship have contributed to a 
crisis of identity within Iraq that cannot be wished away. 
While there are many Sunni and Shi'ite Arabs who proudly 
consider themselves Iraqi, many other Shi'ites look at 
themselves primarily through the prism of their religion.
    As an oppressed majority, many feel it is their turn to run 
the country on their own. The Ba'ath ideology encouraged Arabs 
to think of themselves less as Iraqis and more as part of the 
larger Arab nation. Sunni Arabs, now fearful of losing their 
historic privileges, may again find pan-Arabism an attractive 
alternative to minority status within Iraq.
    For the last 12 years, four million Kurds have governed 
themselves in a de facto independent state protected by the 
United States and Great Britain. With their own elected 
parliament and having enjoyed relative freedom and prosperity, 
the Kurds have no desire to return to control from Baghdad. For 
most Iraqi Kurds, Baghdad is associated with decades of 
repression and, more recently, Saddam Hussein's genocide.
    With Kurdish replacing Arabic as the language of the 
schools in the North, of the media and the government, the 
Iraqi identity has largely disappeared in the Kurdish region, 
especially among younger people. While Kurdish leaders 
understand that independence is not a realistic option, 
virtually no Kurd would choose to be Iraqi if given a free 
choice. And over the long term, it is, in my judgment, hard to 
hold a democracy together where the population of a 
geographically defined area overwhelmingly does not want to be 
part of that country.
    Holding Iraq together by force is not an option. The Kurds 
now control the only remaining Iraqi army, the 100,000-strong 
Peshmerga, who posses the heavy weapons they have long coveted. 
It is unlikely that a future Iraqi regime will have the power 
to destroy Kurdish self-government, and inconceivable that the 
United States would or could coerce the Kurdistan region into 
accepting political arrangements for a future Iraq that did not 
include a continuation of much of the current level of self-
government.
    The Kurds, after all, were America's second major ally in 
the recent war, sustaining more casualties than the British and 
compensating for Turkey's non-cooperation by creating the 
desperately needed northern front.
    If Iraq cannot be held together by force, then the only 
alternative is to build incentives for its peoples to form a 
voluntary union. Fortunately, the prospect of oil revenue does 
provide an incentive for Iraq's diverse peoples to stay 
together.
    The Iraqi opposition has long supported federalism as the 
model for a future Iraq, a position both secular Arab and 
Shi'ite religious parties have reaffirmed since the fall of 
Baghdad. While there are different views of federalism, it will 
clearly be a loose federation. The Kurds look to Canada and 
Bosnia as possible models. They will want a single Kurdistan 
parliament and government, the power to tax and spend, control 
of police, ownership of natural resources--although oil 
revenues likely would to be pooled--and the right to maintain a 
Kurdistan self-defense force. Like Canada, the Kurds will 
insist on equality of the Kurdish and Arab languages, and that 
Iraq not define itself as an Arab state.
    It is not clear how the Arab parts of Iraq would organize 
themselves. Some Shi'ite leaders have spoken of creating a 
predominantly Shi'ite province in the South that would, in 
essence, be a mirror of the Kurdistan province. Others have 
spoken of using the existing Arab governates as a basis for 
federalism. It is likely that a future Iraqi federation will be 
asymmetric, meaning Kurdistan will have more power than other 
federal units. Federalism, especially when combined with 
revenue sharing, resolves many of the contradictions of modern 
Iraq. In the South, the Shi'ite religious parties may be able 
to adopt a more Islamic form of local administration without 
imposing it on the aggressively secular Kurds or on all of 
Baghdad. Federalism may help ease the fears from Sunni Arabs 
about domination from an unholy alliance of Kurds and Shi'ites. 
And federalism may persuade the Kurdish people, over time, that 
they can have a place within Iraq.
    Creating a federation will be complicated. Among the 
difficult issues to be resolved will be the boundaries of 
different provinces, and particularly how much territory south 
and west of the former green line would be included in 
Kurdistan. Presumably, this would have to be resolved by local 
referendums or censuses. All parties will have to take into 
account the interests of other communities who may have their 
own demands for self-government, such as the Turkomans, 
Assyrians, and Chaldeans. The United States should refrain from 
imposing its own views on the outcome and should avoid coercing 
any of the parties into accepting political arrangements they 
will later regret.
    It seems to me that President Bush had it right when he 
outlined his vision of Iraq as a place where Shi'ite and Sunni 
and the Kurds can get along in a federation. Indeed, in my 
view, this is the only way Iraq can long survive.
    Thank you.
    [The prepared statement of Ambassador Galbraith follows:]

  Prepared Statement of Ambassador Peter W. Galbraith, Distinguished 
  Fellow, Institute for International and Strategic Studies, National 
                           Defense University

    Mr. Chairman, Members of the Senate Foreign Relations Committee
    Operation Iraqi Freedom has transformed Iraq. Even Iraqis opposed 
to the American military occupation embrace the result--the removal of 
Saddam Hussein and his Ba'ath regime.
    In three weeks in Iraq beginning April 13, I saw many scenes 
exemplifying the joy of liberation. These included:

  <bullet> Shiites exuberantly marching to Karbala to commemorate as-
        shoura, an important religious pilgrimage banned for 27 years;

  <bullet> Kurds posing for family pictures on ruined Iraqi tanks;

  <bullet> Picnickers in Mosul playing soccer on the grounds of 
        Saddam's hundred acre palace, and swimming in his swimming 
        pool; and

  <bullet> Ex-political prisoners banging away at toppled statues of 
        the fallen dictator.

    Everywhere, there are signs of the horror from which the people of 
Iraq escaped. In Mosul, I watched as men dug up bodies with their bare 
hands. The forearms of each corpse had been tied together with nylon 
rope, and bullet fragments lay nearby in the ground. On this trip, I 
had the opportunity to visit prisons and torture centers near Kirkuk 
and Baghdad that I heard about from survivors who had escaped in the 
1990s. If anything, these places were more horrific than even the 
survivors could convey. And every place in Iraq (except for the 
Kurdish-governed region), I encountered Iraqis holding faded pictures 
and scraps of papers as they searched for loved ones who disappeared 
into Saddam Hussein's murder apparatus.
    For thirty-five years, the peoples of Iraq endured a regime that 
carried out two genocides, the ``anfal'' campaign against the Kurds in 
the late 1980s and the destruction of the Marsh Arabs in the 1990s, 
that murdered hundreds of thousands of political foes, that routinely 
engaged in torture, and that killed upwards of 300,000 Shiites in the 
months following the failed 1991 uprising. (Just one mass grave near al 
Hillal contains 30,000 corpses.)
    Because of this exceptional record of genocide, murder, and 
cruelty, I supported President Bush's decision to go to war to remove 
Saddam Hussein and his regime from power. I believe the war can be 
fully justified as a humanitarian intervention to save lives, very 
similar to those the United States undertook in Bosnia and Kosovo in 
the 1990s.

                        A CATASTROPHIC AFTERMATH

    Unfortunately, U.S. goals in stabilizing Iraq, and creating 
conditions for democracy in that country were seriously undermined by 
the U.S. failure to prevent catastrophic looting in Baghdad and by an 
uncertain and confused approach to post war governance. While 
Ambassador Bremer has clearly brought greater coherence to U.S. 
efforts, it may be impossible to recover from the weak start to the 
Coalition occupation.
    When the United States entered Baghdad on April 9, it entered a 
city largely undamaged by a carefully executed military campaign. 
However, in the three weeks following the U.S. takeover, unchecked 
looting effectively gutted every important public institution in the 
city--with the notable exception of the oil ministry.
    The physical losses are huge. They include:

  <bullet> The National Library, which was looted and burned. 
        Equivalent to our Library of Congress, it held every book 
        published in Iraq, all newspapers from the last century, as 
        well as rare manuscripts. The destruction of the library meant 
        the loss of an historical record going back to Ottoman times.

  <bullet> The Iraqi National Museum, which was looted. While the 
        losses of archaeological artifacts are not as great as 
        originally feared, thousands of items have been smashed or 
        stolen. The 34 display pieces stolen include some of the 
        museum's most valuable items. The 5000-year-old Warqa Vase 
        contained the first images of religious ceremonies and is 
        estimated to be worth as much $100 million.

  <bullet> Banks, which were attacked everywhere.

  <bullet> Hospitals and other public health institutions, which were 
        stripped of medical equipment, medicines, and, in some cases, 
        patient beds.

  <bullet> Baghdad and Mosul Universities which were stripped of 
        computers, office furniture, and books. The furniture and 
        computers are replaceable. Decades of academic research went up 
        in smoke or was scattered, and is not easily replaced.

  <bullet> Government ministries, which were looted and/or burned. At 
        the Irrigation Ministry, millions of dollars worth of 
        hydrologic records may have been lost, a matter of vital 
        importance in a country known as the land of two rivers. These 
        losses will certainly complicate efforts to undo one of the 
        worse crimes of the Saddam Hussein regime, the systematic 
        draining of the southern marshes. The Ministry of Higher 
        Education held records of professional qualifications that are 
        now lost.

  <bullet> The National Theater, which looters set afire nearly three 
        weeks after U.S. forces entered Baghdad.

    Even more surprising, the United States failed to secure sites 
related to Iraq's WMD programs or obvious locations holding important 
intelligence. As a result, the United States lost valuable information 
that related to Iraq's WMD procurement, paramilitary resistance, 
foreign intelligence activities, and possible links to al-Qaeda. Let me 
provide a few examples:

  <bullet> On April 16, looters attacked the Iraqi equivalent of the 
        Center for Disease Control taking live HIV and live black 
        fever. The building had long been considered a highly 
        suspicious place by both UNMOVIC and UNSCOM, and had been 
        subject to repeated inspections. It is quite possible that the 
        building contained evidence relating to Iraq's biological 
        weapons program, but if that is the case we may now never now. 
        The Marine Lieutenant who watched from next door as looters 
        ransacked the building told us: ``I am afraid I am responsible 
        for Armageddon, but no one told me what was in that building.'' 
        Fortunately, I saw no reason to believe that terrorists were 
        involved in the theft of biological material, but this cannot 
        be completely excluded.

  <bullet> The warehouse at the Tuwaitha Nuclear site was left 
        unguarded and looters took yellow cake and other material that 
        could be useful for terrorists wanting to make a radiological 
        weapon, and certainly could make the looters (and their 
        families) sick.

  <bullet> ABC news found the personnel records of the Fedayeen Saddam 
        in the basement of Uday Hussein's unguarded house. Uday Hussein 
        headed the Fedayeen Saddam, a paramilitary group that provided 
        some of the deadliest resistance to U.S. forces on the way to 
        Baghdad.

  <bullet> Ten days after the U.S. took over Baghdad, I went through 
        the unguarded Iraqi Foreign Ministry going from the cooling 
        unit on the roof to the archives in the basement, and rummaging 
        through the minister's office. The only other people in the 
        building were looters, who were busy banging open safes and 
        carrying out furniture. They were unarmed and not at all 
        threatening. Foreign Ministry files could have shed light on 
        Iraq's overseas intelligence activities, on its procurement of 
        WMD, and on any connections with al-Qaeda. However, we may 
        never know about these things, as looters scattered and burned 
        files during the ten days, or longer, that this building was 
        left unguarded.

                      CONSEQUENCES OF THE LOOTING

    The unchecked looting cost billions of dollars in property damage, 
including the damage to buildings and the value of lost property and 
equipment. Some of what was lost or destroyed is truly priceless, 
including pieces taken from the National Museum and the archival 
material destroyed at the library. But the losses are not just 
material.
    The looting was profoundly demoralizing to the very Iraqi 
professionals on whom we need to rely in rebuilding the country. 
University professors, government technocrats, doctors, and researchers 
are all linked to the looted institutions. Some saw the work of a 
lifetime quite literally go up in smoke. The looting also magnified 
other problems: the lack of electricity and potable water, the lack of 
telephones, and the absence of police or other security.
    Most importantly, the looting served to undermine Iraqi confidence 
in, and respect for, the U.S. occupation authorities. I have no doubt 
that this has complicated the task of the occupation authorities and 
increased the risk to U.S. personnel in the country.

                 COULD THE LOOTING HAVE BEEN PREVENTED?

    War causes disruption, and the speed of the U.S. advance to Baghdad 
clearly saved Iraqi and American lives. Some of what happened was, in 
my view, unavoidable. It is certainly was no surprise that Baghdad's 
electricity went out, and I cannot tell if the months-long blackouts 
could have been shortened with better planning and more resources. 
Similarly, it is no surprise that, with the collapse of the regime, the 
police melted away creating a vacuum filled by criminals and 
vigilantes. This happens in post conflict situations, and it takes time 
to restore law and order.
    The failure to protect any important public institution is, 
however, inexplicable. The looting was predictable. Exactly the same 
thing happened in 1991 in the parts of Iraq taken over by rebels during 
the March uprising.
    While more troops would have enabled the U.S. to do more, the 
looting of the most important sites could have been prevented with the 
forces we had on the ground. Government ministries in Baghdad are 
surrounded by high walls and solid gates, as are many other important 
public institutions. By securing even a few dozen of the most important 
places, the U.S. could have prevented a bad situation from becoming a 
catastrophic one.

                          POLITICAL CONFUSION

    The fall of Saddam Hussein left a political vacuum that the U.S. 
civilian authorities were slow to fill. General Garner did not arrive 
in Baghdad until 13 days after the marines entered the city, and then 
did not effectively set up operations for days after that.
    Further, the initial period was characterized by multiple 
missteps--many of which suggested to me a lack of planning. Early on, 
Garner and his team decided to reappoint senior Baathists to top 
positions. This produced a predictable, and understandable, reaction 
among lower echelon officials who had expected American rule would look 
radically different from Saddam's.
    The initial decision to reappoint judges from the old regime 
shocked Iraqis even more. The old judges had administered injustice for 
35 years, and with mass graves being uncovered every day, Iraqis 
desperately want justice. Even more incomprehensible, the American 
official in charge of prisons had apparently begun to consult with Au 
al-Jabouri, the warden of Abu Ghraib on how to reestablish an Iraqi 
prison system. Abu Ghraib was the most notorious prison in Iraq, and 
with the Khmer Rouge's Toul Sleng, probably the most deadly prison in 
the world since 1945.
    Ambassador Bremer quickly, and rightly, reversed these decisions, 
disqualifying high Baath officials from public office. But the initial 
appointments--and then the sudden reversal--created an impression among 
Iraqis that the U.S. authorities did not quite know what they were 
doing.
    The handling of the political transition has contributed to the 
impression of incoherence. General Garner traveled around Iraq 
promising that a representative assembly would soon be convened to name 
provisional government. Ambassador Bremer has reduced Iraqi 
participation in the new administration to a small, appointed advisory 
council. In this case, I think General Garner had the better of the 
argument. However, the greater damage comes from the appearance of 
uncertainty.

                            A POLITICAL PATH

    The first weeks of U.S. occupation have shown the limits of 
American power in Iraq. The missteps have also served to limit American 
power in the country.
    The United States cannot decide the political future of Iraq, 
although can help influence the process. This has a short term and long 
term dimension.
    In my judgment, any occupying power has a relatively short window 
before which the goodwill generated by liberation is replaced by anger 
and frustration at the lack of progress in improving the quality of 
life of the people of the country. For reasons outlined above, the 
United States may have an especially short window in Iraq.
    This means transferring real power to Iraqis as soon as possible. 
The problem is, which Iraqis?
    The U.S. occupation authorities should, in my view, give up the 
search for the mythical insiders who can help lead Iraq to prosperity 
and democracy. Obviously, there are many talented men and women who 
stayed in Iraq through the Baath period, and probably some of them are 
committed to liberal democracy. However, given the nature of Saddam's 
regime, any such person kept his or her views secret, or was dead. 
Except for the Kurdish-controlled region, there are no identifiable 
leaders from inside Iraq with democratic credentials.
    Unless we plan on staying in Iraq for the decade (or more) needed 
to develop an alternative leadership, we must work with the former 
exile leaders and the Kurdish leaders. While it easy to belittle the 
exiles as ``Saville Row'' or ``armchair'' revolutionaries, I think this 
is very unfair. Many are talented individuals, deeply concerned with 
the future of their country. They have kept alive the cause of freedom 
in Iraq for decades when the international community, and even the 
United States, saw Saddam Hussein as a strategic partner, not a pariah.
    Iraqis, even if exiles and Kurds, will have more local knowledge 
than the coalition authorities. They know enough to avoid some of the 
mistakes ORHA made, such as working with the old Iraqi prison 
authorities. And, from the U.S. perspective, it is far better to have 
Iraqis blaming their own provisional government for the inevitable 
shortcomings of the occupation than for everyone to be blaming the U.S.

                            VOLUNTARY UNION

    The long-term challenge facing the United States in Iraq is 
developing a democratic political system while holding the country 
together. Most people in Iraq do not primarily identify themselves as 
Iraqis, and one group, the Kurds, would prefer not to be Iraqis at all.
    Iraq is an ancient land but a relatively new state cobbled together 
at the end of World War I from three quite different Ottoman 
Provinces--largely Kurdish Mosul, Sunni Arab Baghdad, and Shiite Basra. 
Throughout its ninety-year history, Sunni Arabs have run the country, 
often brutally repressing the non-Arab Kurds and the majority Shiites. 
Clearly, this historical domination of the country by one group has 
impeded the development of a single national identity.
    The Shiites speak of themselves primarily through their religious 
identity. While the Shiites are not separatists, many feel their status 
as long time victims and as the majority population entitle them to run 
the country. This terrifies Sunni Arabs who not only fear the loss of 
historic privilege but also retribution. Ironically, Saddam Hussein's 
pan-Arab Baath ideology also encouraged Sunni Arabs to think of 
themselves not primarily as Iraqis but as a unit of the larger Arab 
nation.
    The people least accepting of an Iraqi identity are the Kurds. For 
the last twelve years, four million in Kurds have governed themselves 
in a de facto independent state protected by the United States and 
Great Britain. With their own elected parliament and having enjoyed 
relative freedom and prosperity, the Kurds have no desire to return to 
control from Baghdad. For most Iraqi Kurds, Baghdad is associated with 
decades of repression and, more recently, Saddam Hussein's genocide. 
With Kurdish replacing Arabic as the language of schools, media, and 
government, the Iraqi identity has largely disappeared in Kurdish-run 
regions, especially among younger people.
    Holding Iraq together by force is not an option. The Kurds now 
control the only remaining Iraqi Army--the 100,000 strong peshmerga who 
now possess the heavy weapons they long coveted. It is unlikely a 
future Iraqi regime will have the power to destroy Kurdish self-
government. It is inconceivable that the United States would--or 
could--coerce the Kurdistan Region into accepting political 
arrangements for a future Iraq that did not include a continuation of 
the current levels of self-government. The Kurds, after all, were 
America's second major ally in the recent war, sustaining more 
casualties than the British, and compensating for Turkey's 
noncooperation by creating the desperately needed northern front 
themselves.
    If Iraq cannot be held together by force, then the only alternative 
is to build incentives for its peoples to form a voluntary union. 
Fortunately the prospect of sharing oil revenues does provide an 
incentive for Iraq's diverse peoples to stay together.
    The Iraqi opposition has long supported federalism as a model for a 
future Iraq, a position both secular Arab and Shiite religious parties 
have reaffirmed since the fall of Baghdad. While there are different 
views of Federation, it clearly will be at best a loose federation. The 
Kurds look to Canada and Bosnia as possible models. They will want a 
single Kurdistan Parliament and government, the power to tax and spend, 
control of the police, ownership of natural resources (although oil 
revenues may be pooled), and the right to maintain a Kurdistan self 
defense force. The Kurds will insist on equality of the Kurdish and 
Arabic languages, and that Iraq not be defined as an Arab state.
    It is not clear how the Arab parts of Iraq would organize 
themselves. Some Shiite leaders have spoken of creating a predominantly 
Shiite province in the South, in essence a mirror image of Kurdistan 
Province in the north. Other Arabs have proposed using the existing 14 
Arab governates as a basis for federation in their part of the country. 
It is likely that in a future Iraqi federation will be asymmetric--
meaning Kurdistan will have substantially more power than the other 
federal units.
    Federalism--especially when combined with revenue sharing--resolves 
many of the contradictions of modern Iraq. In the South, the Shiite 
religious parties may be able to adopt a more Islamic form of local 
administration without imposing it on the aggressively secular Kurdish 
leadership or on all of Baghdad. Federalism may help ease fears from 
Sunni Arabs--particularly those in the Baghdad-Ramadi-Tikrit-Samara 
heartland--about domination from an unholy alliance of Kurds and 
Shiites. Federalism may persuade the Kurdish people, now accustomed to 
running their own affairs that they can do so without separating from 
Iraq.
    The future of Iraq will have to be sorted out with the agreement of 
all the relevant peoples--i.e. the Kurds, Sunni Arabs, and Shiites. The 
United States should refrain from imposing its own views on the 
outcome, and should avoid coercing any of the parties into accepting 
political arrangements they will later come to regret.
    Creating a Federation will be complicated. Among the difficult 
issues to be resolved will be the boundaries of different Provinces, 
and in particular, how much of the territory south and west of the 
former green line should be included in Kurdistan. (Presumably, there 
should be local referendums or censuses to decide the matter). All 
parties will have take into account the interests of other communities, 
such as the Turkomen, Assyrians, and Chaldeans.
    President Bush had it right when he outlined his vision of Iraq as 
a place where ``Shia, and the Sunni and the Kurds can get along in a 
Federation.'' Indeed this is the only way Iraq can long survive.

    The Chairman. Thank you very much, Ambassador Galbraith.
    Dr. Kemp, would you please give us your testimony?

 STATEMENT OF DR. GEOFFREY KEMP, DIRECTOR, REGIONAL STRATEGIC 
           PROGRAMS, THE NIXON CENTER, WASHINGTON, DC

    Dr. Kemp. Thank you, Mr. Chairman. And thank you, Mr. 
Chairman and Senator Biden, for your kind remarks.
    I believe these hearings are very timely. And I just might 
add, as a footnote, that I actually worked for this committee, 
way back in 1976, as a consultant. And, at that time, the 
preoccupation was the implications of the major American 
military presence in Iran and what that meant for the region. 
So I guess it's familiar territory for me.
    I was asked to talk about some of the broader regional 
issues stemming from the ongoing situation in Iraq, and I will 
do that, but I'd just like to preface it with a couple of 
background notes, which I think reflect some of the points 
you've all made so far this morning.
    I mean, it's interesting to recall that in the months 
preceding the Iraq war, when the international debate took 
place on the wisdom and the consequences of using military 
forces to overthrow Saddam Hussein, one issue on which both 
supporters and opponents of the war concurred was that the 
United States and its allies would defeat the Iraqi Armed 
Forces and that the most difficult problems were likely to 
arise after victory. And this prediction was correct. The 
short-term glory of a quick, decisive, and remarkably effective 
military victory has been replaced by a more sober realization 
of America's long-term strategic commitments to the region.
    Most troubling of the events, of course, are the problems 
of how to reconstitute Iraq's military forces and bring law, 
order, and a better quality of life to the citizens of Baghdad, 
Basra, and other Iraqi cities. Particularly difficult is the 
need to bring responsible Iraqi's into the decisionmaking 
process while assuring a balance of representative leaders 
within Iraq's diverse population. How to deal with the majority 
Shi'a population is probably the most complicated task.
    Now, when we go and look at the regional issues and how 
Iraq affects that, I think it's important to remember that 
there were lots of benefits for Iraq's regional neighbors while 
he was in power, because so long as he was in power, he posed 
no direct military threat to his neighbors, thanks to U.N. 
sanctions and the formidable U.S. presence in the region and 
the enforcement of the northern and southern no-fly zones. 
Iraq's oil exports were contained by lack of investment and the 
U.N. Oil for Food Program. A tight, but by no means foolproof, 
embargo on military supplies assured that Iraq's conventional 
weapons were not in good condition.
    Nevertheless, under these constrained circumstances, Saddam 
retained enough internal power to rigidly control his country 
and prevent large-scale instability. These conditions suited a 
number of neighbors, especially Syria, Turkey, Jordan, Iran, 
and Saudi Arabia. Farther afield, traditional rivals of Iraq, 
such as Egypt, did not have to share the limelight with the 
leader of Baghdad, who was isolated in Arab circles and unable 
to exert Iraq's traditional influences on Arab politics. Many 
countries, directly or indirectly, profited from the 
flourishing black market trade with the Saddam regime. With the 
coalition victory, these perks have all ended.
    So several realities must be acknowledged at the outset, 
particularly when discussing short-term conditions. Until 
Saddam and his entourage are found dead or alive, and the issue 
of Iraq's WMD is resolved, and the day-to-day conditions of 
Iraq is improved, it would be premature to pass judgment on 
what has happened since the war, except in the short term. 
Postwar scenarios are always messy. And while clearly there was 
a lack of foresight and preparation for the aftermath of Saddam 
Hussein, perhaps because his army collapsed so quickly, Iraq is 
very much a work in progress and, therefore, requires the most 
careful scrutiny by the U.S. Congress and the American public; 
hence, the reason I'm so pleased you're having these hearings.
    This is the time to look at the facts on the ground and 
interpret them in a sound and sober manner. No one, anymore, 
doubts the effectiveness of U.S. military power in destroying 
regimes such as the Taliban and the Iraqi Ba'athists. But the 
early mistakes of the administration in handling the postwar 
reconstruction need to be fixed quickly.
    At this time, post-Saddam Iraq does not look like post-war 
Germany or Japan; it looks more like Afghanistan or Bosnia. The 
coming months will be decisive in determining whether or not a 
brilliant military campaign and faulty postwar policies can be 
formulated into a successful outcome.
    Now, I'd like to focus on three regional countries and how 
they're affected by what's happening in Iraq and the perennial 
problem of our European allies.
    One country I think it's important to talk about is Syria. 
During the first week of the fighting, when things were not 
going so well for the coalition, the leader of Syria, Mr. 
Bashar al Assad, gave a blistering interview to the Lebanese 
newspaper, al Safir, in which he, in effect, called for 
guerrilla operations against American occupying forces 
equivalent to those conducted against both the United States 
and Israel in Lebanon in the 1980s.
    However, once the war went well for the coalition, both 
Secretaries Rumsfeld and Powell weighed in against Syria, 
including a visit by Secretary Powell to Damascus. Since that 
time, Syria has remained quiescent. One reason for this is that 
the United States has been on record for many months indicating 
that Syria's involvement in support for terrorism that kills 
Americans, notably its protection of Hezbollah, will eventually 
become a target for U.S. wrath. This was put very explicitly by 
Deputy Secretary of State Richard Armitage in an address to the 
U.S. Institute of Peace, on September 5, 2002, when he said, in 
effect, ``Hezbollah is part of the A-team, and we will come 
after them.''
    So Syria, Mr. Chairman, finds itself in a difficult 
position, accused of harboring Ba'athist renegades and possibly 
storing Iraqi weapons. Syria fears that Iraq could emerge, with 
American help, as a powerful challenge to its own influence and 
interest in the region; and, therefore, it may have an interest 
in destabilizing our presence there. However, the Syrians must 
be very careful, for they now have to consider that, on their 
border, they have three extremely powerful military 
establishments: Turkey, Israel, and the United States. Any 
false move by Syria could prove fatal to the Assad regime. 
However, Syria, along with its neighbor, Lebanon, will want to 
keep the pot boiling, if only because both Syria and Lebanon 
have unresolved issues with Israel. In the case of Syria, until 
the Golan Heights problem is addressed as part of a formal 
agreement with Israel, Syria's interests will lie in non-
cooperation with the United States, but not to the point where 
it is likely to attract a military response.
    Now, we come to Iran, which I think may be the most 
important country at this point in time. Iran has huge stakes 
in what is happening in Iraq. It also has the most potential to 
influence, for good or ill, how the situation in Iraq emerges. 
Of course, there was no love for Saddam Hussein in Iran, and no 
tears when his regime was ousted. Iranians are still bitter 
about their isolation during the 8-year war with Iraq and the 
fact that they were victims of massive chemical attacks. 
Nevertheless, as described above, they benefited from Saddam 
Hussein's control of the country in his containment. Now they 
face a formidable American presence on all their borders. They 
are literally surrounded by American military power, whether in 
Afghanistan, Pakistan, Saudi Arabia, Kuwait, Iraq, or Turkey.
    Iranians fear both a strong pro-Western Iraq, but also an 
unstable Iraq that they do not control. Iran will be under 
great pressure from its own nationalists to continue to 
exercise a nuclear insurance policy--that is to say, build a 
nuclear infrastructure, but not to cross the nuclear threshold 
and build nuclear weapons, not, at least, at this point in 
time. Iran will clearly be influenced by how the United States 
handles the Iraqi military situation and how we deal with the 
rebuilding of the Iraqi Armed Forces as they consider their own 
security needs. If the United States sets out to provide Iraq 
with modern conventional technology, including weapons that 
could ultimately have an offensive capability, then Iran will 
clearly continue its own strategic modernization and perhaps 
cross the nuclear threshold.
    However, the most immediate issue for Iran is the future of 
the Shi'ite community in Iraq. As the majority group, the 
Shi'ites have the power to determine Iraq's future. It would be 
quite wrong to assume that Iran controls the Iraqi Shi'ites, 
yet they do have strong influence with certain Shi'ite 
factions.
    Control for the hearts and minds of the Iraqi Shi'ites is 
perhaps the most serious problem confronting both the United 
States and Iran. Many Iranian reformers--that is to say, those 
who want to change the constitution of the Iranian regime 
rather than mount a counter revolution--believe that the re-
emergence of Najaf, as a center for Shi'ite learning, will have 
a powerful impact on the theocracy of the Iranian revolution 
and could strengthen the hands of those who believe that hard-
line Iranian mullahs will have their authority further 
undermined if countervailing theocratic voices emerge in Najaf, 
voices that are respected and listened to by a growing number 
of Iran's more moderate clerics.
    Thus, the future of the Tehran regime may be affected by 
how the United States manages the Shi'ite question in Iraq. If 
it does so in a sensible and effective way, it could achieve 
the best of both worlds for Iraq and those in Iran who want 
modernization and reform.
    For Iran's hard-line mullahs, the coming months will be 
crucial for the future of their power base. If events go badly 
for the coalition forces in Iraq, with more and more attacks on 
U.S. and U.K. soldiers, some Iranians may be tempted to use the 
occasion to further undermine the American presence by 
participating in terrorism. The effect of this would be to draw 
American forces deeper into the occupation of Iraq, and would, 
at some point, lead to voices in the United States calling for 
massive retaliation against Iran if its sponsorship of such 
acts was clear and proven.
    Alternatively, if the mullahs decide to be pragmatic and to 
follow a wait-and-see policy, then there are those in Iran who 
believe that there are opportunities for the United States and 
Tehran to address some of their longstanding disputes and for 
Iran to reappraise its own foreign policy on matters such as 
the Arab-Israeli conflict, its support of Hezbollah, Hamas, and 
Islamic Jihad, and even their nuclear program. Were the 
Iranians to use the new balance of power in the region to 
reassess their relationship with America, this could, indeed, 
become one of the great positive outcomes of the war.
    But for this to happen, Mr. Chairman, the United States 
must adopt a more sophisticated and nuanced policy toward Iran 
and stop using simplistic sloganeering, including extremely 
unwise and potentially dangerous talk about destabilizing or 
overthrowing the regime in Tehran. Such behavior will only 
convince the hard-line mullahs that they must resist the 
American military presence, and make it difficult for the 
reformers, both inside and outside the government and on the 
universities and the streets, to push for their own reforms.
    Now the question of Israel, Mr. Chairman. Aside from 
Kuwait, no country benefited more, in the short run, from the 
coalition victory than Israel. Ever since the founding of the 
Jewish state in 1948, the Israeli military strategic concerns 
focused threats from three primary fronts: Egypt, Syria, and 
the East. So long as Iraq was controlled by a hostile leader, 
Iraq's military potential could never be ignored by Israel, 
particularly since it had engaged in previous Arab-Israeli 
wars. The Israeli fear was that if Saddam was not removed 
decisively by the United States, there could come a time when 
he would be able to reconstitute his weapons programs, the 
sanctions would end, and Iraq would, in a matter of years, 
reestablish itself as the predominant military power on the 
peninsula. This is no longer the case.
    Israel now has strategic dominance over all its neighbors 
and no longer has to worry about an eastern front. It is the 
only nuclear power in the region and has the support and 
largesse of the United States. Some Israelis believe, possibly 
even Prime Minister Sharon himself, that, for this reason, 
Israel must use the victory in Iraq to make bold strategic 
decisions about its own future with the Palestinians and its 
place in the Middle East.
    Last, Mr. Chairman, what about Europe and NATO? All these 
scenarios about what's going to happen in Iraq are subject to 
the ebbs and flows of the reconstruction and stabilization 
program itself. In the worst case, one can imagine a situation 
where the United States finds itself deeper and deeper 
embroiled in counter-terrorist operations, and U.S. casualties 
continue to mount on a daily, if not weekly, basis. Once the 
number of U.S. casualties lost in the postwar period exceeds 
those lost during the war itself, the political stakes for the 
administration will become even greater. How long the American 
people will wish to stay in such an inhospitable region without 
clear results is anyone's guess, but--and I think this is one 
of the reasons you asked us these questions today--the betting 
perhaps might be ``not forever.'' On the other hand, if things 
go better than expected in Iraq, and a viable leadership 
emerges within a year, then, indeed, the contagion effect, the 
positive contagion effect, may have benefits for the region and 
international security. However, Mr. Chairman, whatever 
happens, the United States cannot do it alone--why it is so 
important eventually to bring in outside powers, including the 
much maligned Europeans.
    Despite the hope on the part of some that Europe would just 
start meddling in the Middle East, geopolitical realities rule 
this out. It is Europe, not the United States, which is 
adjacent to the Middle East. The EU is Israel's largest trading 
partner. As EU expansion continues, perhaps eventually 
including Turkey, its relationship with the Middle East and the 
Muslim world will grow ever closer. But this, in turn, could 
lead to serious conflict potential, as representative 
governments continue to elude most Middle Eastern countries. 
Europeans argue, with frequency that we are all familiar with, 
that a failure to resolve the Arab-Israeli conflict has a 
profoundly negative impact on the political and social 
environment in the Middle East, which, in turn, affects the 
Europeans directly.
    This, finally, brings up the question of NATO and its 
potential involvement in Iraq. If the United States and Britain 
decide that a broader military presence is required, NATO is 
the natural choice, as has been the case in Afghanistan. A NATO 
decision to participate would go a long way to repair the 
bitter schisms that developed in the period leading up to the 
war. However, such a development would invariably mean that key 
NATO members, other than the U.S. and U.K., would have to have 
a greater say in the management of Iraq. This could be to the 
benefit of the United States, which has neither the temperament 
nor the will to be a permanent hegemon in such an inhospitable 
region of the world.
    [The prepared statement of Dr. Kemp follows:]

  Prepared Statement of Geoffrey Kemp, Director of Regional Strategic 
                       Programs, The Nixon Center

                               BACKGROUND

    In the months preceding the Iraq war, an intense international 
debate took place on the wisdom and consequences of using military 
forces to overthrow Saddam Hussein. One issue on which supporters and 
most opponents of the war concurred was that the United States and its 
allies would defeat the Iraqi armed forces, and that the most difficult 
problems were likely to arise following victory. This prediction was 
correct. The short-term glory of a quick, decisive and remarkably 
effective military victory has been replaced by a more sober 
realization of America's long-term strategic commitments to the region.
    Recent events have provided the wake-up call. First, the new round 
of terrorism in Saudi Arabia and Morocco suggests that Al-Qaeda is back 
in business. Now it is to be hoped that America's war on terrorism has 
been joined by more vigorous efforts by key Arab countries, especially 
Saudi Arabia, to engage in closer intelligence and law enforcement 
cooperation. Most encouraging are signs that the Saudi government is 
prepared to address the problems posed by Islamic extremists in its own 
country, including a reevaluation and revision of school curricula and 
the funding of Madrassahs in other countries. Further east, the 
security situation in Afghanistan remains precarious. President Karzai 
is making a valiant effort to extend his authority outside Kabul but 
reconstruction programs are woefully behind schedule because of poor 
security. Absent a secure environment essential foreign investment will 
not materialize and economic conditions will deteriorate. The most 
telling statistic is that the opium trade is once again booming with 
drug cartels back in business. Perhaps most disturbing are reports that 
Pakistani intelligence operatives are once more interfering in a heavy-
handed way in Afghan politics, and warning that the Western military 
presence will not go on forever but that Pakistan will remain a 
powerful neighbor.
    Second, the much-vaunted ``roadmap'' for Israeli-Palestinian 
negotiations and an eventual peace settlement is off to a precarious 
start. Palestinian rejectionists continue to use terrorism to undermine 
Prime Minister Mahmoud Abbas's hopes for substantive negotiations with 
Prime Minister Sharon. The role of Yasser Arafat remains highly 
controversial. The Bush Administration is convinced he will continue to 
be an obstacle to peace and are urging European leaders not to meet 
with him. The good news is that President Bush seems committed to the 
roadmap but what will this mean in practical terms? Will he put greater 
pressure on Prime Minister Ariel Sharon to explicitly curtail further 
settlement activity in the West Bank and Gaza Strip, or will he limit 
his intervention to continued pressure to have the Palestinians curb 
the violence? If the White House is to be taken seriously, both Israel 
and the Palestinians must be persuaded to take painful actions in the 
hope of rebuilding trust. The fact that Prime Minister Sharon has 
officially endorsed the roadmap is important. The best indicator of 
this is the angry response his endorsement has generated within his own 
party and within the settler communities.
    Most troubling for the administration are the difficult questions 
of how to reconstitute Iraq's military forces and bring law, order and 
a better quality of life to the citizens of Baghdad, Basra and other 
Iraqi cities. Particularly difficult is the need to bring responsible 
Iraqis into the decision-making process while assuring a balance of 
representative leaders within Iraq's diverse population. How to deal 
with the majority Shia population is the most important and most 
complicated task. If a moderate Shia leadership emerges that is 
supportive of democracy and not an Islamic state, the repercussions in 
the neighborhood could be far reaching and could eventually pose a 
major challenge to Iran's conservative mullahs. For this reason 
hardline elements in Iran will continue to interfere in Iraq and this 
raises the risks of a U.S.-Iran confrontation.
    From Washington's perspective, the most dangerous scenario would be 
successful military or terror operations against U.S. or British forces 
in Iraq. This would require the allies to take a tougher line and 
deploy additional military forces at the very time Iraq's residual 
security forces are in limbo. This, in turn, will undermine hopes for 
the speedy establishment of a representative Iraqi regime and the 
drawing down of occupation forces.
    For the foreseeable future the U.S. will have to sustain a major 
military presence in the region if it wishes to protect vital 
interests. It will require patience and it will be costly and 
increasingly controversial. If the White House handles this mandate 
poorly, the Middle East could prove to be a political nightmare for yet 
another American president.

                      REGIONAL WINNERS AND LOSERS

    With this background in mind, one way to assess the impact of the 
fall of Saddam Hussein on the regional and international environment is 
to describe the winners and losers from this event and how they could 
change dependent upon the success of the stabilization and 
reconstruction programs.
    So long as Saddam was in power he posed no direct military threat 
to his neighbors, thanks to UN sanctions and the formidable U.S. 
presence in the region and the enforcement of the northern and southern 
no-fly zones. Iraq's oil exports were contained by lack of investment 
and the UN Oil for Food Program. A tight, but by no means fool proof, 
embargo on military supplies, assured that Iraq's conventional weapons 
were not in good condition. Nevertheless, Saddam retained enough 
internal power to rigidly control his country and prevent large-scale 
instability. These conditions suited a number of neighbors, especially 
Syria, Turkey, Jordan, Iran and Saudi Arabia. Farther afield, 
traditional rivals of Iraq, such as Egypt, did not have to share the 
limelight with the leader in Baghdad who was isolated in Arab circles 
and unable to exert Iraq's traditional influence on Arab politics. Many 
countries, directly or indirectly, profited from the flourishing black 
market trade with the Saddam regime. With the coalition victory these 
perks have all ended.
    In the short term, the clear regional winners from the ouster of 
Saddam Hussein have been Kuwait and Israel. If the U.S. succeeds in 
building a stable, pluralistic, humane and economically viable Iraq, 
the positive impacts for U.S. regional and global policy will be 
considerable. In contrast, if Iraq emerges as an unstable, violent and 
ethnically conflicted entity, the outlook for U.S. policy will be grim. 
The most likely outcome is probably a mixture of good and bad with 
ambivalent implications for the administration's grandiose designs for 
changing the Middle East.
    Several realities must be acknowledged, particularly when 
discussing the short-term conditions. Until Saddam and his immediate 
entourage are found alive or dead and the issue of Iraq's WMD is 
resolved and the day to day conditions of Iraqis improve, it would be 
premature to pass definitive judgment on current policies. Postwar 
scenarios are always messy and, while clearly there was a lamentable 
lack of foresight and preparation for the aftermath of Saddam Hussein, 
perhaps because his army collapsed so quickly, postwar Iraq is very 
much a work in progress and therefore requires the most careful 
scrutiny by the U.S. Congress and the American public. This is the time 
to look at the facts on the ground and interpret them in a sound and 
sober manner. No one anymore doubts the effectiveness of U.S. military 
power in destroying regimes such as the Taliban and the Iraqi 
Ba'athists, but the early mistakes of the administration in handling 
the postwar reconstruction need to be fixed quickly. At this time, 
post-Saddam Iraq does not look like postwar Germany or Japan; it looks 
more like Afghanistan or Bosnia. The coming months will be decisive in 
determining whether or not a brilliant military campaign and faulty 
postwar policies can be formulated into a successful outcome.
    The tasks facing the coalition forces in Iraq are truly formidable. 
Security remains the key because without it, nothing else will work. 
(For instance, infrastructure cannot be repaired if the moment it is, 
facilities are looted.) But security concerns must be balanced against 
the priorities of establishing good governance and a justice and 
reconciliation process that deals with the horrendous legacy of the 
Ba'ath party. This includes the huge problem of Iraq's internally 
displaced persons, especially Kurds and Shias, and the growing 
resentment of these groups who, as in the case of the Kurds, embraced 
the Coalition victory and fought alongside its forces. The Shia 
population was less enthusiastic in view of the terrible legacy of 1991 
and their perceived abandonment by the U.S.

                         REGIONAL CONSEQUENCES

            <bullet> Syria
    For the last couple of years, prior to the war, Syria's leadership 
under Bashar al Assad reestablished close relationships with its 
Ba'athist cousins in Baghdad. The bitter personal feud between Bashar's 
father, Hafez al Assad, and Saddam has ended and Syria benefited 
greatly from trade with Iraq, including the illegal importation of 
Iraqi oil through Syria's pipeline. Whether there was any military 
cooperation and how extensive it was remains one of the intelligence 
mysteries of the war. But the fact of the matter is Syria opposed the 
war.
    During the first week of the fighting when things were not going so 
well for the coalition, Bashar al Assad gave a blistering interview to 
the Lebanese newspaper al Safir in which he, in effect, called for 
guerrilla operations against American occupying forces equivalent to 
those conducted against both the United States and Israel in Lebanon in 
the 1980s. Once the war went well for the coalition both Secretaries 
Rumsfeld and Powell weighed in against Syria, including a visit by the 
latter to Damascus. Since that time Syria has remained quiescent. One 
reason for this is that the United States has been on record for many 
months indicating that Syria's involvement in support of terrorism that 
kills Americans, notably its protection of Hezbollah, will eventually 
become a target for U.S. wrath. This was put very explicitly by Deputy 
Secretary of State Richard Armitage in an address to the United States 
Institute of Peace on September 5, 2002 when he said, in effect, 
``Hezbollah's part of the A-team and we will come after them.''
    Syria finds itself in a difficult position, being accused of 
harboring Ba'athist renegades and possibly storing Iraqi weapons. Syria 
fears that Iraq could emerge as a powerful challenge to its own 
influence and interest in the region and therefore may have interests 
in destabilizing the American presence. However, it must be very 
careful for it now has on its borders three countries with extremely 
powerful military establishments, Turkey, Israel and the United States. 
Any false move by Syria could prove fatal to the regime. However, 
Syria, along with its neighbor Lebanon, will want to keep the pot 
boiling if only because both Syria and Lebanon have unresolved issues 
with Israel. In the case of Syria, until the Golan Heights problem is 
addressed as part of a formal agreement with Israel, Syria's interests 
will lie in noncooperation with the United States but not to the point 
where it is likely to attract a military response.
            <bullet> Iran
    Iran is the country that probably has most at stake with what is 
happening in Iraq. It also has the most potential to influence, for 
good or ill, how the U.S. policies emerge. Of course, there was no love 
for Saddam Hussein in Iran and no tears when his regime was ousted. 
Iranians are still bitter about their isolation during their eight-year 
war with Iraq and the fact that they were the victims of massive 
chemical attacks. Nevertheless, as described above, they benefited from 
Saddam Hussein's control of the country and his containment. Now they 
face a formidable American presence on all borders; they are literally 
surrounded by American military power whether in Afghanistan, Pakistan, 
Saudi Arabia, Kuwait, Iraq or Turkey.
    Iranians fear both a strong, pro-Western Iraq, but also an unstable 
Iraq that they do not control. Iran will be under great pressure from 
its own nationalists to continue to exercise a nuclear insurance 
policy, that is to say, build a nuclear infrastructure but do not cross 
the nuclear threshold and build nuclear weapons, at least not at this 
point in time. Iran will clearly be influenced by how the United States 
handles the Iraqi armed forces and rebuilds them. If the United States 
sets out to provide Iraq with modern conventional technology, including 
weapons that could ultimately have an offensive capability, then Iran 
will continue its own strategic modernization and perhaps cross the 
nuclear threshold.
    The most immediate issue for Iran is the future of the Shiite 
community in Iraq. As the majority group, the Shiites have the power to 
determine Iraq's future. It would be wrong to assume that Iran controls 
the Iraqi Shiites. Yet they do have a strong influence with certain 
Shiite factions. Control for the hearts and the minds of the Iraqi 
Shiites is perhaps the most serious problem confronting both the United 
States and Iran. Many Iranian reformers--that is to say, those who want 
to change the constitution of the Iranian regime rather than mount a 
counter revolution--believe that the reemergence of Najaf as a center 
for Shiite learning will have a powerful impact on the theocracy of the 
Iranian revolution and could strengthen the hands of those who believe 
that hardline Iranian mullahs will have their authority further 
undermined if countervailing theocratic voices emerge in Najaf which 
are respected and listened to by a growing number of Iran's more 
moderate clerics. Thus, the future of the Tehran regime may be affected 
by how the United States manages the Shiite question in Iraq. If it 
does so in a sensible and effective way it could achieve the best of 
both worlds for both Iraq and those in Iran who want modernization and 
reform.
    Iran also has major economic stakes in what happens to the Iraqi 
economy. Should the Iraqi oil industry receive massive infusions of 
foreign investment to reconstitute its damaged oil infrastructure, Iraq 
could, in theory, raise its oil production beyond that achieved during 
the past ten years. Dependent upon whether Iraq rejoins OPEC, its role 
as a key supplier could influence the pricing policies of OPEC. If Iraq 
is as rich in oil as some analysts predict, a time could come in the 
next decade when Iraqi production could threaten Iran's own woefully 
stretched and under invested oil industry. This could pose a serious 
problem for Iran given that its own economic problems require that it 
continue to generate foreign currency from oil earnings until such time 
as it can develop its huge natural gas reserves, which remain fallow, 
thanks to the effectiveness of American sanctions.
    For Tehran's hardline mullahs, the coming months will be crucial 
for the future of their powerbase. If events go badly for the Coalition 
forces in Iraq, with more and more attacks on U.S. and British 
soldiers, some in the Iranian regime, particularly in the Ministry of 
Security and Information and the Revolutionary Guards Corps will be 
tempted to directly interfere and use the occasion to further undermine 
the U.S. presence by participating in terrorism. The effect of this 
would be to draw the American forces deeper into occupation of Iraq and 
would, at some point, lead to voices in the U.S. calling for massive 
retaliation against Iran, if its sponsorship of such acts was clear and 
proven. The parallel concerns about Iran's nuclear capacity would also 
be a factor. the mullahs would have to fear that if they play a 
confrontational role in Iraq, they could, themselves, become the 
targets of American wrath. Alternatively, if the mullahs decide to be 
pragmatic and to follow a ``wait and see'' policy, then there are those 
in Iran who believe that there are opportunities for the United States 
and Tehran to address some of their longstanding disputes and for Iran 
to reappraise its own foreign policy on matters such as the Arab-
Israeli conflict and the support of Hezbollah, Hamas and the Islamic 
Jihad. Were the Iranians to use the new balance of power in the region 
to reassess their relationship with America this could, indeed, become 
one of the great positive outcomes of the war.
    But for this to happen, the United States must adopt a more 
sophisticated and nuanced policy towards Iran and stop using simplistic 
sloganeering, including extremely unwise, and potentially dangerous, 
talk about destabilizing or changing the regime in Tehran. Such 
behavior will only convince the hardliner mullahs that they must resist 
the American military presence and make it difficult for reformers, 
both inside the government and on the universities and streets, to push 
for their own.
            <bullet> Israel
    Aside from Kuwait, no country benefited more in the short run from 
the Coalition victory than Israel. Ever since the founding of the 
Jewish state in 1948, the Israeli military strategic concerns have 
focused on threats from three fronts--Egypt, Syria and the east. So 
long as Iraq was controlled by a hostile leader, Iraq's military 
potential could never be ignored by Israel, particularly since it had 
engaged in previous Arab-Israeli wars. The Israeli fear was that if 
Saddam was not removed decisively by the United States, there would 
come a time when he would be able to reconstitute his weapons programs, 
the sanctions would end and Iraq would, in a matter of years, 
reestablish itself as the predominant military power on the peninsula. 
This is no longer the case. Israel now has strategic dominance over all 
of its neighbors and no longer has to worry about an eastern threat. It 
is the only nuclear power in the region and has the support and 
largesse of the United States. Some Israelis believe, and possibly even 
Prime Minister Sharon himself, that for this reason, Israel must use 
the victory in Iraq to make bold strategic decisions about its own 
future with the Palestinians and its place in the Middle East.
    The three underlying threats to Israel's future (aside from a very 
intense and difficult internal struggle amongst Israelis themselves) 
are terrorism, weapons of mass destruction and demography. Israel's 
formidable military forces cannot stop terrorism and the spread of WMD. 
Only the United States and the international community can do this. The 
demographic challenge to Israel is stark. Within ten years there will 
be more Arabs living in the area between the Mediterranean and the 
Jordan River and Israel cannot continue occupation of this territory 
and remain a democracy with a Jewish majority which, of course, is the 
underlying purpose of Zionism. The fact that Prime Minister Sharon has 
talked about ``occupation'' and the possible evacuation of settlements 
suggests that this reality has sunk in even to those hardliners in 
Israel who for many years pursued a Greater Israel strategy. In other 
words, at a time of strategic superiority, with the full backing of the 
United States, Israelis are debating whether this is the moment to 
finally compromise on the territorial issue and accept the fact there 
will be a Palestinian state.
            <bullet> Europe and NATO
    All regional scenarios will, of course, be subject to the ebbs and 
flows of the reconstruction and stabilization effort in Iraq itself. In 
the worst case, one can imagine a situation where the United States 
finds itself deeper and deeper embroiled in counterterrorist operations 
and U.S. casualties continue to mount on a daily, if not weekly, basis. 
Once the number of U.S. casualties lost in the postwar period exceed 
those lost during the war itself, the political stakes for the 
administration will become even greater. How long the American people 
will wish to stay in such an inhospitable region without clear results 
is anyone's guess, but the betting would be not forever. On the other 
hand, if things go better than expected in Iraq and a viable leadership 
emerges within a year, then, indeed, the contagion effect may have 
positive benefits for the region and international security. Whatever 
happens, the United States cannot do it alone which is why it is so 
important to eventually bring in outside powers, including the much 
maligned Europeans.
    Despite the hope on the part of some that Europe would just stop 
meddling in the Middle East, geopolitical realities rule this out. It 
is Europe, not the United States, which is adjacent to the Middle East. 
The EU is Israel's largest trading partner. As EU expansion continues, 
perhaps eventually including Turkey, its relationship with the Middle 
East and the Muslim world will grow ever closer. But this in turn, 
could lead to serious conflict potential as representative government 
continues to elude most Middle East countries. Europeans argue that a 
failure to resolve the Arab-Israeli conflict has a profoundly negative 
impact political and economic environment in the Middle East.
    Immigration, both legal and illegal, from Muslim countries has 
become a critical factor in contemporary European politics. Europe has 
huge political, economic and strategic stakes in what happens to its 
south and southeast. Europeans know that there can be no stability in 
the Middle East without the direct and powerful involvement of the 
United States. Like it or not Europe needs America's help to manage its 
own neighborhood. But America must be sensitive to European, as well as 
Arab and Israeli concerns as it presses its agenda on the region. 
Without European cooperation, American diplomacy will fail and without 
American diplomacy, European hopes for peaceful relations with the 
Muslim world will be stymied.
    Which brings up the question of NATO and its potential involvement 
in Iraq. If the U.S. and Britain decide that a broader military 
presence is required, NATO is the natural choice, as has been the case 
in Afghanistan. A NATO decision to participate would go a long way to 
repair the bitter schisms that developed in the period leading up to 
the war. However, such a development would invariably mean that key 
NATO members other than the U.S. and the UK would have a greater say in 
the management of Iraq. This could be to the benefit of the United 
States which has neither the temperament nor the will to be a permanent 
hegemon in such an inhospitable region of the world.

    The Chairman. Thank you very much, Dr. Kemp.
    Ambassador Wisner.

  STATEMENT OF HON. FRANK G. WISNER, VICE CHAIRMAN, EXTERNAL 
      AFFAIRS, AMERICAN INTERNATIONAL GROUP, NEW YORK, NY

    Ambassador Wisner. Senator Lugar, Senator Biden, it is a 
real pleasure to be here, again, before your committee and to 
join two men, who I respect as much as I do, Mr. Galbraith and 
Mr. Kemp; and, Senator Alexander, an honor, as well, to be able 
to appear before you, I think, for the first time.
    I bring to the table today some reflections on the two 
subjects that Mr. Galbraith and Mr. Kemp have addressed, on 
Iraq and on the region around it. Borne of a number of a number 
of years of experience in the region, including my own time in 
the diplomatic service, which included a time as Ambassador in 
Egypt during the first gulf war, a period of reflection on 
nearly two-and-a-half decades of Saddam's persistent attempts 
to undermine American interests in the region, repress his own 
country, engage in terror and subversion, and commit aggression 
against his neighbors, I bring, as well, today, Senator Lugar, 
to the table, the reflections that were put together by the 
Council on Foreign Relations in two reports \1\ that came out 
earlier this year, and both of which I will leave for the 
record today.
---------------------------------------------------------------------------
    \1\ The reports referred to can be accessed on the Council on 
Foreign Relation's Website at: http://www.cfr.org
---------------------------------------------------------------------------
    In my written testimony, I have advanced a number of 
contentions about the situation and about American policy. Let 
me summarize these in four points.
    The first, which I consider absolutely vital as all of us 
look at the future in Iraq, is the issue of the maintenance of 
law and order; of public security. The United States has done a 
number of things right in Iraq. But one has to recognize that, 
where we've succeeded, we've made a huge contribution through 
the liberation of the country, through feeding its population, 
and we're moving rapidly to reestablish its infrastructure.
    That said, it is time now to move to involve a broader 
international community, as my two fellow witnesses have 
pointed out. We've begun to do so by establishing the basis of 
international legitimacy with the passage of U.N. Security 
Council Resolution 1483. We are already sharing the 
humanitarian and stabilization burdens of Iraq, and we're 
starting to reach out for financial support. These are 
powerfully important directions in American policy, for we 
cannot and should not try to bear the burden alone, but broaden 
the base to increase the legitimacy of ours and the coalition's 
efforts.
    More needs to be done to involve the United Nations in the 
process that is underway in postwar Iraq. The United Nations is 
not only playing the roles I mentioned shortly before, but has 
the potential of playing a significant role, as it has 
elsewhere, in the process of constituting a politically 
sovereign Iraq, a constitutional and political dispensation 
that will lead the country forward. It has experience, and we'd 
do well to call on it.
    It is not wise, in my judgment, for the United States to 
rush to judgment or try to impose a political outcome, even in 
the interim, on Iraq. It takes time for the communities of the 
country, divided as they are, to come together to identify 
their leaders to reach some common ground even before the July 
deadline is approached. This said, and as the Council on 
Foreign Relations reports indicate frequently, restoring Iraqi 
sovereignty is absolutely critical. Restoring Iraqi sovereignty 
is important, not only to Iraq and the region, but to our 
capacity to achieve American objectives in the country; and, 
therefore, making clear what we're about is most important.
    But I return to my opening contention, public order is 
essential; and that has not yet been achieved. Without it, 
there is no political or economic progress possible, nor will 
there be public confidence in the United States, the coalition, 
and our role in the postwar Iraq.
    This means the United States is required to assign 
sufficient and adequate forces. It means, as well, we must move 
rapidly to recruit, train, and deploy Iraqi police, 
intelligence, and security services to bolster the peace-and-
order situation.
    My second argument is that the United States has yet 
clearly to articulate, and must do so, a vision for the postwar 
Iraq, a vision important for Iraqis, for the region, for the 
world at large, and for the people of the United States. That 
vision has a number of components that we need to hear come 
together.
    The commitment of the United States and the coalition to 
see the job through in Iraq for as long as it takes is clearly 
one aspect. Another is a commitment to the restoration of 
complete Iraqi sovereignty within a political structure that we 
would recognize as just, based on democracy, even, to steal 
Senator Biden's argument, that democracy is partly achieved and 
also ``squints toward the future.'' A federal system of 
organization to take into account the disparate communities and 
ethnic groups inside of Iraq. A free market, which is in 
Iraqi's hands, and Iraqis who control not only their oil, but 
other natural resources. A vision of a democracy that shows the 
greatest of respect for the dominant religion of Islam, but 
allows for the free practice of faith. A vision of democracy 
that strengthens Iraq's past bias toward social and gender 
equality. A vision that sees Iraq as a unified nation, one free 
of weapons of mass destruction. A vision of an Iraq that calls 
for peace with its neighborhood, with Iran, Turkey, and the 
Arabs.
    The absence, Senator Lugar and Senator Biden, of such a 
statement, such a clear and articulated statement of American 
intentions, leaves Iraqis unsettled, and the region, as well.
    My third argument is based on a view that I hold very 
strongly, is that the United States will not be able to 
complete its job in Iraq, achieve our objectives in Iraq, 
unless there is a broader framework of stability in the region. 
You cannot treat Iraq in isolation. And, therefore, it is 
important, at the same time that we pursue our most important 
objectives in Iraq, that we address, as matters of equivalent 
priority, the issues that keep the region alight.
    The Israel-Palestinian matter is, of course, the one that 
comes, first and foremost, to mind. And here, with the 
publication of the roadmap based on 242 and 338, the 
President's own commitment, we have taken a first and very 
important step. But it's rough. As the blood that spilled in 
recent days indicates, we are going to have a tough time ahead 
of us, and I can only hope that we will treat this matter with 
the importance and sustained involvement that it deserves. 
Peace, without a determined American involvement, cannot be 
achieved--not today, not in the past, not in the future.
    I believe that it is also possible to take advantage of the 
momentum of the outcome of the war in Iraq to reconfigure our 
relationships with other centers of power in the region, as 
well as address the region's longer-term issues of political 
order and economic progress.
    First, in terms of the region's political--of our 
relationships with the region's major powers, I put the 
question of Iran at the center. It is absolutely right, as 
Geoffrey Kemp noted, that, for the first time in our history 
and in Iran's, we are near neighbors in Afghanistan, the gulf, 
and in Iraq. We cannot afford the luxury of standing back from 
Iran, criticizing it from a distance.
    We have to recognize that, as neighbors, we have a real and 
immediate national interest to attend to, and that we cannot 
attend to them without dialog and without engagement. We need 
to understand where the Iranians are with regard to the future 
of Iraq, Afghanistan, the peace process, terror, weapons of 
mass destruction. We need to engage in our interests without 
trying to guess what will be the political changes in the 
future inside of Iran, which we will only dimly perceive. We 
have immediate American interests to attend to.
    I also believe the time is right to strengthen ties to the 
key pillars of American policy in the Arab world--notably to 
Saudi Arabia and to Egypt--not, for any moment, setting aside 
the priority we must attach to the war on terror, but to 
recognize, in these two countries, the United States has old 
and longstanding friends, and their evolution in the future is 
of critical national importance to the United States.
    Yes, it is important that the United States back democracy 
and free markets as the best way out of the stagnation of the 
Arab world over the past many decades. At the same time, the 
nations of the region, including our old friends, are old 
societies with deep and longstanding cultures where change can 
occur as long as it's approached carefully and with respect.
    I close with an argument, Senator Lugar, that comes back to 
the final contention of your opening statement, and that is my 
fourth point. It is absolutely clear to me that the United 
States has got to be clear about its objectives, the 
administration and the Congress, so that the American people 
will understand what's at stake in this region in the time that 
we will be involved, for we will be involved for a long, long 
time to come. We are committed to a region in a manner that is 
unparalleled to any American commitment since the one we 
undertook in Western Europe after World War II. This will 
demand blood, it will demand treasure, it demands a vision and 
political engagement of more than just the U.S. Government. 
It's a commitment that needs to be articulated, Senator Lugar, 
I would argue, as clearly as you made it this morning, by both 
the administration and the Congress before it settles fully 
into the American conscience, that we are in the Middle East 
and we'll be there for some years to come.
    Senator Biden closed his remarks with a series of 
questions. I can't pretend I can answer all of them in the time 
available to me, but I'd like to argue that, in terms of trying 
to understand how long and how many American troops will be 
involved and what will constitute success, I would suggest that 
we be very careful about setting dates and times; but, rather, 
be clear about the objectives that we want to achieve. If we're 
clear about the objectives that we hope to achieve politically, 
the reestablishment of peace and security, regeneration of the 
Iraqi economy, and to break those responsibilities, as the 
Council on Foreign Relations tried to do in its December 
report, into phases, we set objectives that Americans can 
understand; and, therefore, the timing becomes a secondary 
matter.
    We assumed, in our deliberations, that we might be in Iraq 
for 3 to 5 years. Dates were much less important than deciding 
what objectives we would try to achieve at each step along the 
way. I say this, because I watch, as well, the example of the 
American involvement in Afghanistan, next door, and I watch, 
with concern, that our objectives are not broadly clear and 
deeply felt, and, therefore, deeply committed to; and, 
therefore, that Afghanistan is, at the moment, slipping through 
our fingers. It is profoundly important that we get it right in 
Afghanistan and in Iraq if we are to maintain our credibility 
as we go forward in this troubled century and face other crises 
where we will need friends, allies, financial commitment. If 
the United States isn't persistent, clear about where it's 
headed, what stages it needs to go through in achieving goals 
in Afghanistan and in Iraq, we're going to find it hard to lead 
in future crises.
    Senator, thanks very much for the privilege of appearing 
before you.
    [The prepared statement of Ambassador Wisner follows:]

  Prepared Statement of Hon. Frank G. Wisner, Vice Chairman, External 
                 Affairs, American International Group

        iraq, the middle east, and u.s. policy: getting it right
    Thank you for the opportunity to discuss with you today, Iraq, the 
Middle East, and U.S. Policy. As you may know, I have been involved in 
two major reports on post-conflict planning. First, I co-chaired with 
Ambassador Edward P. Djerejian the Council on Foreign Relations/James 
A. Baker III Institute for Public Policy report ``Guiding Principles 
for U.S. Post-Conflict Policy in Iraq.'' I subsequently served as a 
member of the Council on Foreign Relations' task force which issued the 
report ``Iraq: The Day After.'' In addition, I have visited the region 
and spent the last many months meeting with officials from across the 
Middle East, Europe, and Asia about what needs to happen next in Iraq 
and its neighborhood.
    What is clear is that Iraq's future will have significant 
consequences far beyond its borders. An unstable chaotic Iraq will 
spill its problems across boundaries and draw neighbors in to fill the 
power vacuum. A stable democratic Iraq, on the other hand, has the 
potential to set a political example for the rest of the region and 
become an engine of economic growth. To help Iraq achieve this latter 
vision, America must be clear in its goals and steadfast in its 
commitment. We must be mindful of regional dynamics, cognizant of the 
interests of others and honest about our own limitations.

                            IRAQ--NEXT STEPS

    Establish law and order. The lack of law and order in Iraq 
threatens to destabilize the entire region. And it threatens to destroy 
the tolerance of the Iraqi population for the continuing U.S.-led 
military presence inside Iraq. Rampant violence, score-settling, and 
political uncertainty are allowing elements of the old regime to 
reconstitute, criminal groups to flourish, and compelling ordinary 
citizens to take matters into their own hands. Public security must be 
established and services restored for people to return to work and get 
Iraq moving again. Without sustained law and order, the loftier goals 
that we set for the region will be nothing more than fanciful fleeting 
dreams.
    A robust, multinational security presence throughout Iraq's main 
population centers is required to establish basic security and deal 
with holdouts from the Ba'athist regime. Iraq's security forces need 
retraining and depoliticization. The task of building a new political 
order in Iraq must be shared with the United Nations, and our allies 
and partners who maintain constabulary and deployable national police 
forces. NATO's support of the Polish-led multilateral security force is 
a step in the right direction.
    Articulate a vision. The Administration needs to articulate a more 
detailed vision for what it wants to foster in post-Saddam Iraq. The 
undertaking before us is truly massive, and we need to set realistic, 
achievable goals that can be readily understood, accepted, and embraced 
by the citizens of Iraq, America and the region.
    The long-term goal for Iraq continues to be a sovereign, 
democratic, economically vibrant country, at peace with its neighbors 
and free of weapons of mass destruction. It will take years to achieve 
this, beyond the timeframe of an American occupation. But America must 
commit to stay in Iraq long enough to plant the seeds that sets Iraq on 
the right course. At local levels, communities should be organized to 
facilitate the handing over of political and economic responsibilities. 
At the national level, a consensus among Iraq's disparate communities 
and those committed to a modern, secular state, respectful of its 
religious heritages will serve the country well.
    Including others. The U.S. vision must be as inclusive as possible. 
Iraq's neighbors have a vital stake in Iraq's success. They are well 
aware that chaos in their backyard is troubling on its face, but could 
also translate into chaos at home. Our partners in Europe and the 
Muslim world can provide much needed security capabilities and help 
remove the lingering suspicion that America is set to conquer Iraq. 
Over time, international support will allow America to reduce its 
profile and restore confidence in our role in the region. Whereas the 
Iraqi war divided us; the pursuit of stability can help reunite us, 
even though the latter effort may take time.
    There also must be active consultations among the U.S., Iraqis, 
their Arab neighbors, Iran, Turkey, our European Allies as well as 
other members of the Security Council. The goal should be to bring as 
many international partners as possible into the effort of rebuilding 
Iraq and promoting a more secure Middle East. As we saw in the run-up 
to the war, the failure to confront differences and disputes up front, 
had disastrous implications for several of our country's most important 
relationships and gave rise to outright attempts to thwart our 
objectives.

                  GETTING IT RIGHT IN THE MIDDLE EAST

    Setting clear and achievable goals. The defeat and subsequent 
collapse of Iraq confirmed America's military prowess. In the aftermath 
of the military phase, we have seen ample reason to fear that while we 
have won the war, we may lose the peace. Washington's commitment to 
improve the lives of Iraqi citizens must remain paramount.
    It is essential that we work to prevent the current instability 
from infecting the entire region. We must establish clear goals and 
work toward realizing them. Such goals would include: achieving success 
in, and eventual disengagement from, Iraq; fostering regional stability 
(including momentum on the Israeli-Palestinian front, a quiet well-
orchestrated engagement with Iran and a strengthening of relations with 
key Arab partners) and promoting freer politics and markets in the 
region.
    Maintaining momentum toward Israeli-Palestinian Peace. Getting it 
right in the Middle East means not just a different Iraq, but also a 
fair and just solution to the Palestinian-Israeli conflict. American 
presence in Iraq has raised hopes that Washington will commit its good 
offices and resources to the Israeli-Palestinian conflict. This 
seemingly endless crisis has come to represent the violent history of 
set backs and defeats that Arabs and Muslims have experienced at the 
hands of western powers. It has an on-going and crushing psychological 
effect on the entire region. The President's visit to the region and 
his strong support for the road map is a welcomed recognition of the 
need to tackle this vexing problem. The newly launched peace process, 
as well as the full involvement of the President is an enormous step. 
Considerable determination will be required to maintain momentum.
    Still, previous attempts at peacemaking offer two distinct lessons. 
First, any new effort must be ``front loaded,'' with steps devised to 
end terror and stop settlement construction. Second, American 
involvement is necessary, but not sufficient, for peace. The Arabs and 
Europeans must be called upon to use their influence, as we begin to 
wield ours. Positive statements made by Arab leaders after the U.S.-
Arab Summit at Sharm el'Sheikh are movements in the right direction. 
But if this initiative fails to maintain momentum, and stability in 
Iraq remains elusive, moderates throughout the region will be further 
undermined and we will have lost the few voices that still support 
American activity.
    Capitalizing on the new political context. The United States is 
Iran's ``neighbor,'' in Afghanistan, Iraq, the Persian Gulf, and to 
some extent Pakistan. This new political context provides the 
opportunity to revisit with Iran some very basic questions such as:

  <bullet> What constitutes stability? What constitutes security?

  <bullet> What role does each side understand the other to be playing? 
        What role does each side see for the other?

  <bullet> What broad outcomes do we seek on critical areas of 
        difference including Israel/Palestine, Iraq, Afghanistan, 
        terrorism, nuclear proliferation, etc.

    Our interests dictate that we engage Iran now and not await 
political change in Iran. Iran is no more prone to revolution than are 
other countries. The 1979 revolution was the result of decades of 
political organization that brought together key Iranian domestic 
institutions such as the clerical establishment, wealthy land owners, 
charitable organizations, and eventually the military. Today, such 
organized political opposition simply does not exist. Even if sudden 
political change were to occur, it is unclear whether a new Iranian 
government would distance itself from the policies America finds most 
threatening.
    Iran's nuclear ambition is supported by a considerable portion of 
the population, and there can be no papering over its ties to 
terrorism. A clear set of disincentives must be devised to dissuade 
such practices. At the same time, such disincentives must be 
accompanied by a corresponding set of incentives to foreswear such 
activity. Providing only bad and worse alternatives will drive Iranian 
leadership to take the very actions we seek to avoid. We risk creating 
a self-fulfilling prophecy.
    Strengthening our ties with key Arab partners. While America's 
world changed dramatically on September 11th, we must remember that the 
Middle Eastern countries are facing cataclysmic changes. The second 
Intifada that began in September 2000 sparked unprecedented disgust and 
rage that is directed at local leaderships, who appear impotent to deal 
with both domestic and regional challenges. September 11th, 2001 
brought the United States into direct contact with the region, and 
``Operation Iraqi Freedom'' of March 2003 tore at the very fabric of 
local societies. The recent terrorist attack in Saudi Arabia and 
Morocco have put the region further on edge. In other words, the region 
is experiencing political whiplash.
    Egyptian, Saudi Arabian and Syrian support in fighting terror and 
building a more secure Middle East is instrumental. We must prioritize 
what we are asking of each country, in order that they can work with 
the United States while satisfying the needs of their people. We can 
nudge states like Saudi Arabia and Egypt toward change. But we would be 
better served by doing so quietly and respectfully. We can not and 
should not brook opposition to ending terror and its origins.
    Promoting freer politics and markets in the region. America's 
rhetoric leading up to the war created considerable expectations. 
Instability in Iraq, however, has created cynicism about America's real 
motives. The region's leadership and people have both finally 
recognized that slow economic growth rates and increasing joblessness 
are fast becoming problems of a significant magnitude. The Middle East 
Peace Initiative (MEPI) is the right vehicle to help encourage 
political and economic participation. However, we have yet to 
articulate exactly how MEPI money will be used, how local citizens can 
access it, and our benchmarks for success. It would also be useful to 
rethink how easing access to the WTO may serve American and regional 
national interests.

                        GETTING IT RIGHT AT HOME

    Our goals in Iraq and the region must be understood by Americans 
and articulated by the Administration in cooperation with Congress. 
There are sacrifices ahead and years of work required. Our forces and 
our resources will be stretched beyond anything we have prepared for.
    Our intelligence and diplomatic capacities in this region must be 
strengthened. Our businesses and civil society institutions must become 
more involved. The commitment we have made is tantamount to rebuilding 
Europe after World War II. We have done it before. We can do it again. 
But we cannot do it on the cheap; and we cannot do it if we become 
distracted by other worthy challenges.

    The Chairman. Well, thank you very much, Ambassador Wisner.
    Let me say that the committee will adopt a 10-minute rule 
for the first round, and we'll have a second round if that is 
necessary. It may well be, given the numbers of questions that 
we have for all of you.
    I'll begin the questioning at this point.
    I'm curious, really, to get an impression from the three of 
you, as veterans of the trail, of how our Nation ought to 
prepare in the future. We have a work-in-process in 
Afghanistan, as you've pointed out, Ambassador Wisner, and 
clearly in Iraq. These are different situations from Germany 
and Japan, the World War II situation you cited as our last big 
challenge. Each of you have pointed out reasons why.
    In the case of Iraq, which consists of disparate groups 
that were grouped together, perhaps arbitrarily, by history a 
few decades ago, can there be a sufficient sense of Iraqi 
identity in which Kurds and other groups are prepared to say, 
``We are Iraqis''? The same might be the case in Afghanistan. 
Certainly, our experiences in the former Yugoslavia, indicates 
that in this particular era, the United States has not faced 
threats from very large powers, like Germany or Japan or 
nation-states of that variety, but, in fact, is dealing with 
terrorism by dissident sects of people with different sorts of 
issues. That may be part of the history of why certain peoples 
came together. We have really a distinctly new set of 
challenges.
    Now, this committee and others, and the press, are now 
replete with the fact that the military operation was superb, 
the planning was remarkable. In our testimony, one witness 
after another came to say, ``The day after the hostilities 
start, law and order will be required. Who will be the 
policemen?''--all the things that we're discussing today. These 
were not hidden issues.
    We were unable, in this committee, to find very much from 
the administration about what they were going to do. I would 
just say this is sad, in a sense, because the administration, 
in my judgment, wasn't well prepared.
    So we've been through that. Aspects of this, as Ambassador 
Galbraith points out, are very severe. The looting, which was 
predictable, is going into hundreds of millions, and maybe 
billions, of dollars. Now we ask for a business plan of how we 
might begin to recoup, through oil sales or various other 
things, money coming back in the door. There are already huge 
losses that are very tough for the Iraqi state, huge debts that 
have not been resolved. We had, in our last testimony, the 
thought that there's a moratorium throughout 2004. Still, we 
have hardly settled what the liabilities of this state that 
we're trying to work with vis-a-vis the rest of the world are.
    Now, this leads me to wonder--we do not have, at least 
institutionally, in the United States, as best I can tell, a 
training institute or a sophisticated graduate school or any 
group of people that think about the hereafter for military 
action. We all call upon our government to mesh gears; but, as 
a matter of fact, they are equal tasks. People involved in the 
military train, they think through scenarios, they work this to 
a fare-thee-well. Thank goodness that they do so, in terms of 
our security. But what about the hereafter? Who does the 
training for this? On an ad hoc basis, we picked up a few 
people from various agencies that go out to the Pentagon for 
awhile, they go out to Kuwait and, sort of do their best, but 
it is still a pick-up game all the way along.
    My own view, I suppose, is that the American public, by and 
large, supports the military aspect. We understand that 
mission. We're prepared to devote funds and training and so 
forth, and we understand victory. But perhaps what we have not 
tried to think through, and we must, is the so-called nation-
building or peacekeeping or whatever. Here, we have said we're 
not involved in this; and, therefore, we have not devoted 
resources to it. And when we're forced to do something of that 
variety, we try to improvise; and, in this case, not very 
successfully. But the fate of not doing it successfully is 
likely to be very, very tragic.
    So I'm wondering, from your own experience--each of you 
have faced this, in a way, because you've had, in your roles in 
government, to improvise--please fill in the gaps here. Is 
there value in facing up front, as an administration, as a 
Congress, the fact that the threats to our country from 
instability--from failed states, from incubators of terrorism, 
and what have you--are likely, without being able to name names 
or know where we're going to head--to lead to a requirement for 
a very large number of skilled Americans? Now, add to that the 
point you've all made that America should not do it alone. To 
what extent should this be a NATO function? For example, should 
it be an international function in which we bring together in 
preparation, people from several nations, all of whom come 
together to share these skills in the same way that, in a rough 
way, we've tried to work with NATO partners in military niches 
or various things that they do? It just seems to me that we're 
at a threshold of an important here that we really have to 
make. The failure to make it is likely to lead to either good 
luck or bad luck coming from this situation, without any 
predictability, and no constituency whatsoever, in the American 
public understanding of why we have such people or what we are 
about.
    Do any of you have any reaction to this general scenario?
    Ambassador Galbraith. You've hit on absolutely critical 
questions. And the first point I would underscore is the close 
connection between getting the postwar right, the nation-
building, and our military resources. Where we don't get it 
right, we actually put our troops in danger and we increase our 
military commitments. I realize that this committee has been 
concerned for decades over our unfortunate tendency to starve 
our diplomatic instrument while, we support well our military 
instrument, as we should. But somehow we don't see the 
connection between the two. And that is absolutely true in this 
case.
    I think it's unfortunate that, at this point in time, 
there's discussion of even closing down the Army's Peacekeeping 
Institute at Carlisle, which trains our military people. And 
certainly my students at the National War College understand 
that peacekeeping is a critical part of what the military does. 
They may not like it, but they understand that that is part of 
the mission that they have.
    The Chairman. This is about to be shut down?
    Ambassador Galbraith. I understand that there is discussion 
of shutting it down, and some legislation pending to try to 
keep it open. That is my understanding. I haven't looked at it 
that closely.
    I would make just a couple of other points--nation-building 
is critical, and it is something that the United Nations does, 
and it does rather well. I had the privilege of participating 
for 18 months in the mission in East Timor. Now, the United 
Nations has many inefficiencies, but, as we can see in Iraq, 
nation building is a very difficult and complicated task.
    I think it's fortunate, in Iraq, that the United Nations 
has chosen Sergio Vieira de Mello, who is absolutely the most 
capable diplomat I've encountered. I think he can and should 
play a critical role, particularly in the political process, 
because I think his persuasive skills will be very valuable. 
But the U.N. has resources in the area of justice, of CIVPOL, 
and other areas that can be helpful.
    A second point I'd make is that we need to rethink how we 
do some of these things. There was an evident lack of planning. 
People were recruited to go to Iraq at the very last minute, 
and so, naturally, they didn't have time to figure out who was 
who. And they ended up making some horrendous mistakes. They 
actually worked with the head of Abu Ghraib Prison, or at least 
consulting with him. This man who ran the most notorious prison 
in the world since 1945.
    We also have to be prepared to take risks. You cannot 
occupy a country and not assume a certain element of risk for 
your personnel. It is a dangerous business. You should not take 
unnecessary risks, but when some of your civil authorities 
never got out of the Republican palace. That's ridiculous.
    Ambassador Wisner. Senator, I join Peter Galbraith in--I 
think the questions you put before us are really the 
challenging ones.
    As I think back on the experience of the United States, 
over recent years, and the issue that you raise of, ``How do 
you go about planning for a postwar period,'' I'm struck, I 
think, by the principal fact that it's fundamentally a 
political question. It's a political question and it's a 
commitment on the part of the United States to doing the job of 
nation-building. We actually are quite good at nation-building. 
We showed it in Western Europe, in Japan, in Korea. We have a 
good track record. At the same time, our history also tells us 
that we got very disappointed with the mission of being nation-
builders. It fell into disfavor as a result of the war in 
Vietnam, and, of course, during the crisis in Somalia, the very 
concept of nation-building took further hits, and it was 
politicized in the American environment.
    I believe the starting point, therefore, is to look, 
frankly, at the kinds of crises, the risks the United States 
will be running in this century, and recognize that the 
question of nation-building is going to be with us for a long 
time to come, and it's part of our political responsibilities, 
not only as a nation with interests in the world, but being 
clear with our own people about the commitments we're asking 
from them.
    From that flows, as Peter has just said, a number of 
practical steps that one has to take. I recall reading the 
history of the last 2 years of World War II, the bloody fights 
inside the U.S. Government over what shape nation-building 
should take with regard to Germany and Japan, and how far off 
the plans in those two regards were from the outcome. One is 
always reminded of General Marshall's wonderful statement that 
plans never work out the way you think, but you always must 
plan. In the Western European context, we worked out very 
different arrangements. We have to be flexible. But the 
political mindset, that we would stick with it, that we would 
have the right people, we would follow policies with broad 
principles, all of that made sense, and that we would have the 
resources available to be a nation-builder. I believe we know 
how to do it. It's a question of establishing the political 
priority and a consensus among ourselves the job needs to be 
done.
    You asked specifically about NATO and the international 
dimension, the coalition dimension of nation-building and our 
responsibilities in these post-conflict phases. We've all been 
talking, during the course of the morning, about the role the 
United Nations must play, or NATO or ad-hoc coalitions. All can 
play roles, and they're, indeed, playing roles right now in 
Iraq.
    As we sat down to think about the coming conflict in Iraq, 
in New York, at the Council, we all recognized that one of the 
toughest problems about the first phase, justifying our 
intervention in Iraq, would be where it would leave us when the 
war was over, who we would have on our side, what our 
legitimacy would be. Getting our diplomacy right struck us as 
absolutely important. It couldn't be truer today.
    It is possible to get our diplomacy right. I think the 
world is, on the whole, prepared to cooperate, to try to share 
some of the burdens to create an Iraq that will be more stable, 
and accommodate the United States, key members of the 
coalition, in their diplomacy, to contribute treasure, 
contribute funds, contribute forces. It is important the United 
States not only look for that, not to escape responsibilities, 
but to involve the world and to legitimize our presence in Iraq 
by enveloping it in a stronger international consensus, to get 
the level of our profile down so that we are not the targets of 
all the criticism and the failures, a point I think Peter made 
when he talked about making certain we get Iraqis into office 
as quickly possible. The same is true of broadening the base of 
the international coloration of our efforts there.
    So let me associate myself with your two remarks. We are 
nation-builders, we will be nation-builders. We must prepare to 
be nation-builders, accept that responsibility. And, second, 
it's best done in a coalition framework, an international 
framework. We have an opportunity in Iraq to do that.
    The Chairman. Dr. Kemp, do you have anything to add?
    Dr. Kemp. I have very little to add to what my two 
colleagues have said, Mr. Chairman. I mean, I would just stress 
that I think, you know, historically, the United States has not 
wanted to set up a colonial service, so there are not 
institutions that train civilians to go out and manage the rest 
of the world, as some countries have done in the past; and that 
part of the problem is that, you know, we have extraordinarily 
effective military forces who can intervene anywhere in the 
world unilaterally, without any support from anyone, apart from 
forward logistic bases, but we do not have this backup 
capability, which we now see is so essential. And yet other 
countries do. Other countries have far more effective 
constabulary forces than we do. They are much better suited for 
peacekeeping, because they train for it for years.
    And the question really is, Do we try to duplicate these 
capabilities, ourselves, through building new institutions and 
calling them nation-building or peacekeeping, whatever you 
like, or do we cooperate? And that seems to me, Mr. Chairman, 
that is the fundamental dilemma the United States faces at this 
time. It is going to be a unilateral power that essentially 
writes its rules and does what it likes, or are we going to 
work with others? And if the latter is the case, as I think it 
should be, then, indeed, there has to be an understanding that 
the upcoming conflicts that we're going to face will have a 
front end which we will deal with, because we have the strong 
military; and the back end, that we're going to need enormous 
support and help for. And, in that regard, I think working 
closely with the NATO countries is a good place to start.
    I would just conclude that I think what you're pointing out 
reflects a deeper problem in the diminishing regional skills 
that are now available to many of the institutions in the U.S. 
Government. For instance, one of the complaints in the early 
days of the occupation of Iraq has been the absence of Arabic 
speakers. And if you talk to anyone in the intelligence agency, 
much the same thing can be said there. This may have improved 
since 9/11, but we clearly still have a long way to go.
    The Chairman. Thank you very much, sir.
    Senator Biden.
    Senator Biden. Thank you.
    As the three witnesses know, your answer to the chairman's 
last question has been a constant drumbeat by the chairman and 
me and others in this committee for the last year. I would 
offer two observations and then ask some specific questions.
    One, I think this town is a reflection, Dr. Kemp, of what 
hasn't happened. When the Berlin Wall came down, the 
intellectual institutions that were erected over the past 40 
years remained, and everyone was looking for a job, in effect. 
I'm not being facetious when I say that. We had a whole lot of 
Soviet experts, a whole lot of Eastern European experts, a lot 
of arms-control experts, a lot of very brilliant people, who, 
for 50 years, guided our policy. We did not have the focus of 
the most significant minds in this country, in and out of 
government, focusing on the region we're now talking about. 
There were people who had expertise, but you didn't have entire 
think tanks and institutions built around just dealing with 
these issues we're now confronting. And it's taken time. I 
remember--well, at any rate--so it's taken time. And I hope we 
speed it up a little bit.
    And Dr. Kemp's comment, that concluding comment, that we 
have to--paraphrasing--we have to make a decision about whether 
we're going to move unilaterally or not, and that we may be 
able to unilaterally handle the front end, but the back end of 
the process, we need help.
    One of the things that I spent the last 12 months 
apparently falling on deaf ears in the administration is, you 
can't expect a back end if you don't have some discussion on 
the front end. The idea that we can unilaterally decide where 
we want to change the world and then, after the fact, go out to 
the rest of the world and say, ``Now, by the way, you clean it 
up with us, and you take on the major responsibility in doing 
that,'' they may do it, because they have no choice because the 
chaos that may be left if we don't do it and they're left with 
it, but it sure would be a heck of a lot better had we had a 
thing called diplomacy at the front end of this process, which 
I think was sorely lacking.
    Which leads me to a point I want to make for--well, 
relative to the last hearing, this hearing, and future 
hearings. Speaking only for myself, but I suspect the committee 
may share a similar view, when we discuss with you, as we will 
today and in the future, why we were so unprepared for the 
post-Saddam period, it is not to assign blame. It is not to 
say, ``Aha, I told you so. You didn't do what you were supposed 
to do. You failed.'' That is not the purpose; at least it's not 
my purpose.
    The answer to that question as to why we were so woefully 
unprepared--although there were some serious successes; the oil 
fields are basically intact, people are not starving, there's 
not major exoduses, there's not major flight, and there is not 
major recriminations that are going on at the moment, so there 
are genuine successes--but why were we so unprepared? The 
answer to that question is important, not because we need to 
assign blame, but to determine whether there is an ideological 
impediment to this notion of nation-building that exists among 
very important people in this administration.
    The people who have been primarily in charge are very, 
very, very, bright people, among the most informed and 
brightest people I've dealt with in 30 years as Senator. It's 
not that they could not have known what the Council recommended 
in a number of its areas, including establishing stability and 
the need for, on page 3 of your executive summary or on page 5 
of the first report to the Council, of establishing law and 
order. There's no one in this administration who could have 
failed to understand that. They aren't tone deaf.
    And what I'm trying to get at, the reason I keep pursuing 
this, is--look at Afghanistan. I am not saying anything out of 
school. Dr. Rice has said it publicly. When I would meet with 
her once a week, back when I was the chairman, we were pushing, 
many of us in this committee, for expanding the international 
security force beyond Kabul so that there was something other 
than that there was a prospect that Mr. Karzai would be 
something other than the mayor of Kabul. We talked, in great 
detail, about the need for all the aid to go through his hands, 
so he had something to disseminate in Herat or something to 
disseminate in other parts of the country, that there was some 
reason for the warlords needing him.
    I remember midway through this debate, after we lost the 
debate, and the State Department lost the debate, on expanding 
the ISAF and making it more muscular and so on, so forth, Dr. 
Rice said, ``There is stability.'' I said, ``Yeah, Ishmael Khan 
is in control of Herat.'' She said, ``Yes, there's stability.'' 
That was a definition of stability. That was the objective. And 
then we're told that that country has never been able to be 
controlled by a central government.
    So what I'm trying to get at here--I want to make sure you 
understand the context of my questions--is, I think there's a 
great ideological divide here, among the neo-conservatives and 
the rest of the administration and many of us, as to what is 
doable and what is the objective. Because I can't, for the life 
of me, believe that the leading lights in this administration 
didn't understand the very things that the Council and each of 
you have recommended, ahead of time, as to what were some 
glaring deficiencies.
    And so that's the context in which I ask the questions 
here, is whether or not we're running up against a need for a 
change in the predominant thinking of the administration in 
order to get the job done, or whether or not there is a 
consistency that we only need to tweak a little bit here.
    Now, toward that end, let me go specifically to my 
questions. The idea of the involvement of NATO, the EU, and the 
United Nations--you've all mentioned them being involved, in 
one way or another--can any of you be specific with me--other 
than in State Department terms, which are bland, impressive, 
and have little content terms--of telling me precisely what 
role do you look for for NATO? Should NATO forces comprise 50 
percent of the, quote, ``occupying forces''? Should they 
comprise 75 percent? Should we be sharing, as we did in Bosnia, 
having, in a military commander, who was an American, but 
making up only 15 percent of--I mean, in Kosovo--making up only 
15 percent of the forces? Are we talking about--have we already 
met the goal of involving NATO because we've got the Poles and 
the Brits there? I'm of the view this administration told me 
that we already have NATO involved. So what do you mean by NATO 
involvement?
    The second question is, what kinds of--I think, again, Dr. 
Kemp, you said--you all reflected the same thing that Dr. Kemp 
said, which was that there is a need for there to be--this has 
to be internationalized more. I assume you mean that in terms 
of decisions on governance within Iraq. When I speak to our 
interlocutors in France, Germany, even Great Britain, Spain, 
Italy, they basically say, ``Look, you want us in on the deal. 
We've got to have''--and I think it was your phrase, Dr. Kemp; 
I may be mistaken--we're going to have to, in effect, yield 
complete dominance on every decision of consequence that's 
made. There has to be some input that they have.
    And with regard to Iran--and I'll come back in a second 
round, because I have some very--with regard to Iran--I had an 
opportunity to spend some time with Dr. Kemp, and I've had some 
time in the past with Ambassador Wisner, to talk about Iran--
there seems, to me, to be an absolute--and it goes back to this 
ideological divide that I perceive that exists in the 
administration--an absolute--put it another way----
    I believe, if, tomorrow, the reformers prevailed in Iran 
and established what we would call a democracy along the lines 
of an Islamic state, like Turkey, that that new democratic 
government would be unwilling to give up its nuclear capacity, 
that it would be unwilling. There's no government I can 
perceive in Iran that would voluntarily say, ``You know, we're 
in a rough neighborhood here, and the idea of us having the 
ability someday to have a nuclear capability is something we're 
going to foreswear.''
    And so any negotiation with Iran seems, to me--forces any 
administration to come face to face with how do you--not 
eliminate, but how do you constrain, control, and/or have total 
transparency about any nuclear program? And that, to me, from 
my discussions with leaders in this administration and in the 
last administration, as well, a nonstarter. You cannot start 
with that as being something that may end up being at the end 
of the negotiation; therefore, no discussion.
    So if you could speak to me about any of what I've raised, 
and then I'll come back in a second round to pursue--because I 
realize what I've asked you cannot be answered in a very 
short--pick any piece of it to respond to. I'd appreciate it.
    Dr. Kemp. I'll just respond on the nuclear Iran, and maybe 
my colleagues will add on the other points.
    Senator, this is a critical issue, because I think, first, 
we have to be very clear what we mean by Iran's nuclear 
program. I mean, at the moment--we'll know more on June 16, 
when the IAEA Governors meet to decide whether or not Iran has 
violated any of its NPT commitments--but there is an important 
distinction between an Iranian nuclear program that includes 
all the infrastructure for a full fuel cycle and an Iranian 
nuclear weapon.
    Senator Biden. Agreed. I meant an Iranian nuclear structure 
not an Iranian nuclear weapon.
    Dr. Kemp. Right. Well, my argument would be that if Iran 
had turned into Turkey, we could live with an Iranian nuclear 
infrastructure that was under IAEA safeguards, and Iran had 
signed the additional protocol. I think that would be far less 
dangerous, for instance, than the current situation we have in 
Pakistan, where we have a government that is not under any 
safeguards, that is ruled by a military dictator, who could be 
overthrown at any time. So I would be more comfortable, 
frankly, with a reformed Iran that still had a nuclear 
potential, than a regime in Tehran that conducts terrorism and 
has not signed the additional protocol.
    But, clearly, how the United States thinks about putative 
Iranian nuclear capability has to be a function of other things 
the Iranian Government is doing in its foreign policy, 
particularly terrorism and how it deals with Iraq and 
Afghanistan. If they re-configured their foreign policy in a 
way that was acceptable to us on those issues, I think we could 
be more laid back about the nuclear-infrastructure issue.
    Ambassador Wisner. Peter, forgive me, I'm jumping in right 
here on the tail end of Geoff Kemp's remarks about Iran and the 
nuclear issue.
    I think perhaps I see it a bit differently. I agree with 
Geoff that what we have before us is an extraordinarily 
dangerous situation. The Iranians are developing capabilities 
that could one day be weaponized. The question is, Will they 
weaponize them, and what will deter them from weaponization?
    At the heart of the matter, whether they see eye to eye 
with us politically or they do not, or they change their 
policies, this problem is going to continue to exist. I think 
it's very important, therefore, to focus with the Iranians, in 
dialog with the Iranians, on fixing the inspection regime, 
increasing the safeguards, going to 93-plus-2, making it clear 
that--understanding that we cannot live with a process that 
goes to weaponization, that, in the context of progress on 
other fronts, we will not be able to turn our back on--the 
Iranians will continue to have a capability. But we're going to 
live with ambiguity with the Iranians, whatever happens in the 
end. And I think the best we can move for at the moment is to 
intensify the internationalization, the safeguards, and 
introduce 93-plus-2.
    As to your first point, I would, frankly, welcome NATO 
being, as early as possible, a player in the Iraq front, 
starting with logistics and planning functions, moving to 
command functions, increasing the numbers of forces, and would 
associate with your wish in that regard. But let's not lose 
sight of the fact that the objective is to put security in the 
hands of Iraqis and to train and equip police and Iraqi 
security forces.
    Senator Biden. Let's not lose sight of the fact that in 
every place we've tried to do that, it's taken years and years. 
So anybody who thinks this is going to occur in 6 months or 8 
months, I'm willing to bet my career that they're wrong.
    Ambassador Wisner. At the rate we turn out Afghan 
battalions, you're absolutely right.
    Senator Biden. The rate we did it in Bosnia, the rate we 
did it in Kosovo, the rate we did it anywhere, it is a very 
tough deal.
    Ambassador Wisner. True enough. At the same time, if we 
don't start now and start with large numbers, we won't reach 
the objective. International forces, in short, will not be the 
final arbiter of Iraqi security.
    The second point----
    Senator Biden. On that point, though, let me--international 
forces will not be the final arbiter. But can we get to the 
final arbiter without international forces?
    Ambassador Wisner. No, we have to----
    Senator Biden. I mean, and internationalizing the force, 
that's really the question now. That's the next piece here, 
isn't it?
    Ambassador Wisner. I'm fully in agreement. And, therefore, 
the role that I briefly outlined for NATO makes a great deal of 
sense.
    The Chairman. Let me just interrupt you to try to get 
perhaps to Senator Alexander before we have a break, in 
fairness, so he can get into the situation, because he won't be 
coming back.
    Senator Alexander.
    Senator Alexander. Well, thanks, Mr. Chairman and Senator 
Biden. I've thoroughly enjoyed the testimony. I just have one 
area I want to explore a little bit that Mr. Galbraith got me 
to thinking about, and Mr. Wisner, as well.
    I want to talk about the Iraqi identity, if there is one. 
It seems to me, Mr. Galbraith, that you've suggested that the 
two principles that might unite the national identity of Iraq 
are basically the principles that unite a university and its 
president, which are, No. 1, get our share of the money; and, 
two, leave us alone.
    I mean, those would be the--and I'm not really being 
facetious with that--that we talk about nation-building, and 
all of you talked some about, you know, comparisons in history 
to that. But we don't have much comparisons in history to this 
kind of nation-building, as I think--at least not the ones we 
usually think about.
    We think about Germany. You mentioned Germany. You 
mentioned Japan. You mentioned Korea. But all those are nations 
who are nations because of the great principles or conditions 
that usually create a nation, and those are almost always the 
same. They begin with religion. They usually have to do with 
ethnicity. They often have to do with a common language. Then 
there are some cultural attitudes. Then there sometimes is a 
common enemy. And when all those factors are in play, you have 
a nation.
    And so one says, ``I'm a German,'' or, ``I'm a Korean,'' 
or, ``I'm a Japanese.'' And what we forget, as Americans, is if 
we move to Germany, we don't become German. If we move to 
Japan, we don't become Japanese. If we move to Korea, we don't 
become Korean.
    And we look at the world in terms of people moving here. 
And if a Korean or a Japanese or a German moves here, we expect 
them to become Americans. And what makes them Americans? Well, 
none of the things I just--not many of the things I just 
suggested, because we come from many places, have many 
different religions, started out with different languages, and 
our ethnicity has really nothing to do with what it means to be 
an American. In fact, we deny that it has anything to do with 
it.
    So in trying to apply our notion of what it means to be a 
nation to Iraq, seems to me to be completely impossible, and we 
should recognize that to start with. It wasn't a nation to 
start with; it was just lines drawn in the sand around three 
different kinds of people.
    And Mr. Wisner then--after World War I, then Mr. Wisner 
then began to state the principles that we might suggest to 
them. Now, they're all great-sounding principles--you know, 
free market, the--you know, I can think of the things that 
unite us: liberty, equal opportunity, rule of law, 
individualism, democracy, laissez faire--we might suggest all 
that, but it would be as if the French were suggesting it to us 
230 years ago.
    So the question is, If we were going to--if someone were 
going to write, ``We hold these truths to be self-evident,'' in 
the new nation of Iraq, I mean, who would do it? Who is the 
Washington and Jefferson and Madison? And then what would they 
say? Would they say, ``We hold these truths to be self-evident. 
Give us our share of the oil money and leave us alone in our 
three sections''? Those are the truths. Is there anything else 
that unites the Nation of Iraq--are there any principles? Are 
there any cultural attitudes?--besides federalism and a share 
of the oil money?
    Ambassador Galbraith. Senator, I think you've really put 
your finger on the central problem of Iraq. It is not a nation-
state, because it's not a single people, not a single nation. 
The Arabs are part of a larger Arab community. The Kurds are, 
in fact, part of a larger Kurdish community. And there are 
other peoples there, as well.
    If we were back in 1919 or 1923, I think we might wish to 
reconsider the idea of creating Iraq. It has been basically a 
failure for most of the people who live there for its entire 
history, and this didn't just begin with Saddam Hussein.
    But, unfortunately, we're not in 1923; we're in 2003. And 
it would be very complicated, and possibly bloody, to redraw 
the maps there or to break Iraq up into two, much less three, 
states. It would have enormous regional repercussions.
    Now, the fact is, it isn't much to hold a state together, 
when the only reason to do it is to say that it would be very 
messy if it broke up. And, having served in the former 
Yugoslavia, I can tell you a lot about those complications.
    So the truth is, there isn't much there, and that is why I 
strongly recommend a political system that basically allows 
each of Iraq's major ethnic and religious communities to have 
almost complete self-government within a single internationally 
recognized border. We should try to provide an incentive for 
them to stick together, which is sharing some very large oil 
revenues. Whether that lasts or not, I don't know. And if there 
can be a peaceful divorce some point in the future, not in 
2003, but in 2013, I don't think that that should necessarily 
concern us very much.
    I want to touch on one point that's so critical to this. 
You talked about a number of things that are absent in Iraq, 
like a common language. Islam is the predominant faith, but you 
have the two different branches. There is no common ethnicity. 
And the issue of the common enemy--well, if you are a Kurd, an 
Iraqi Kurd, the main enemy that you have had for 90 years has 
been the Iraqi army. And it is the Iraq army, not a foreign 
army, that actually committed genocide against the Kurds--an 
open and shut case of genocide. And the Iraqi Army engaged in 
brutal repression of the Shi'ites.
    So if we go in with a vision of nation-building, that we're 
going to recreate in Iraq a multiethnic Iraqi state on the 
American model, we are really doomed for failure. We should 
understand this. Let's accept, for example, that the Kurds will 
keep the self government they now have. Let's accept that they 
would even retain their own military, at least for the time 
being. Because what they worry about is not any foreign 
country; it is that there will be a resurgent Baghdad that will 
resume the repression to them. And, frankly, if you were in 
their shoes, you would feel the same way.
    Senator Alexander. What this all makes me think about is, 
we correctly celebrate our diversity so much, which is a 
magnificent strength of our country, that we tend to forget 
that our greater accomplishment is defining a set of principles 
and attitudes that creates one--you know, the ``e pluribus 
unum'' idea. You know, it is a rare and very difficult thing. 
And it seems to me that it would be misguided to try to impose 
that idea upon a set of circumstances so dramatically different 
than anything that exists here, and certainly for the 
foreseeable future.
    Ambassador Wisner. Senator, I'd have to agree with that. At 
the same time, you don't want to be unnecessarily gloomy. Iraq 
may be a new nation of 80 years standing, but it is a very 
ancient culture, and the history of communities living side by 
side is the more common, rather than communities divided. The 
fact of Iraq's history is, it is true of much of the region. I 
wouldn't, therefore, say that you cannot create a nation of 
communities. But that ought to be the right objective.
    At the same time, in setting your objective of allowing the 
communities to coalesce, identify their leaders, bring those 
leaders together, create the incentives that Peter has talked 
about that will tie them together, I would argue that it is 
really important to surround them in a framework of democratic 
principles.
    Now, lest one thinks those democratic principles are alien 
to Iraqi culture, Iraqi political culture contains very strong 
liberal principles. If you go through the recent experience, 
even the dreadful years of Ba'ath rule, respect for women's 
rights, women's participation, social objectives were all--have 
always been in the forefront of Iraqi political thinking.
    Now, I would only argue that you divide matters into two 
time zones. One is to get a basic political structure in which 
the communities live side by side. That's your first objective, 
and that's the realistic first objective. But, second, to 
create democratic principles that, over time--and I recall 
Senator Biden's statement of ``squinting toward democracy''--
where maturing habits allow you to arrive at a greater set of 
democracy. The way I would see it is two different timeframes.
    Dr. Kemp. I'll defer, because I think my two colleagues 
have answered the question very appropriately.
    I would only add that, for a period for 32 years, Lebanon, 
which is an equally diverse and complex society, actually did 
form a national covenant, and the groups did work together. 
But, unfortunately, in 1975, it all came tumbling down. So the 
record in the region is not a good one of these societies 
living together like this.
    The Chairman. Let me intervene at this moment to say that 
we do have the rollcall vote proceeding, and the committee will 
stand in recess for about 10 minutes until Senators have had a 
chance to vote, and then we will return for more questions.
    Thank you.
    [Recess.]
    The Chairman. The hearing is called to order again.
    Let me ask a question about our public diplomacy in the 
area. Each of you have touched upon this, in a way. The thought 
has been that, obviously, progress must occur with the Israel-
Palestine question, and perhaps with other questions, for 
people in the area, not only of Iraq, but the surrounding 
nations, to have a better feeling about the United States, 
about our objectives, about who we are and what we are doing. 
Many people have been quoting a recent Pew Foundation report 
indicating, country by country, the large percentages of people 
in that region, but, likewise, in Europe and elsewhere, who 
have a dislike for America, for our objectives, for us. Those 
percentages appear to have increased during the problems of 
hostilities in Iraq. Perhaps in the postwar period, why, things 
will improve. They have in Australia, for example, and 
anecdotally in some other countries.
    Each of you are veterans of that area. What do we need to 
do? And does it make a difference? In other words, is it 
important that America be liked by more people so that they 
have greater confidence? Or do we simply accept the fact, as 
some have suggested, that we have tough things to do, difficult 
jobs, and we believe we're on the right course of history; in 
due course, people will catch up with us. What is your own 
judgment about the importance of public diplomacy and public 
opinion in Iraq and in the surrounding countries?
    Ambassador Galbraith. Mr. Chairman, I think the first point 
about public diplomacy is that it is the policies and the 
results that matter most. I think, as you know--and I worked on 
those issues for this committee--so often, we hear, ``If only 
people understood us better.'' But I think the core of the 
problem is that people do have an idea about what our policies 
are, and they simply disagree with them. In this part of the 
world, I think it's obvious that a genuine commitment to 
solving the Palestine-Israel conflict, the restoration of Iraqi 
sovereignty, a number of these steps will produce results.
    I think there are some things that we can do, in the Iraqi 
context, that will be very important. One of them is to really 
get out the story--and, again, it's not telling a story; it is 
just the facts--about what the Saddam Hussein regime was about. 
I'm not sure that this should be done by the U.S. Government. I 
think this is the perfect thing for an international 
commission, like the Bassiouni Commission, which you'll recall 
documented some of the crimes in Bosnia and was a precursor to 
the International Criminal Tribunal. But that information 
should be recorded, a record created, and the people 
responsible for massive crimes should be identified. And doing 
that will help make the case that what we did in Iraq was, in 
fact, the right thing.
    I think there's a larger point, which is that--and one that 
Senator Biden, I think, was also alluding to--in the whole 
process, I think it is important to have respect for the 
opinions of others, even if we disagree with them. And I think 
sometimes our officials need to realize that statements made 
for domestic consumption have ramifications abroad. I'm sorry 
to say I think we rubbed the salt unnecessarily in the wounds 
with the Germans and the French. I don't think it served any 
national interest. And I think this is true of some of the 
comments that have been made about post war Iraq. The Iraqis, 
for example, were constantly saying to me, ``Is the looting of 
our museum your idea of a little bit of exuberance? Of 
democracy?''
    So we need to be careful in some of our statements, because 
in this interconnected world, they have an audience beyond the 
domestic one. These things are heard around the world.
    The Chairman. Anyone else have a view on public diplomacy?
    Ambassador Wisner. I'd perhaps add a couple of thoughts to 
Peter's statement. I think that, in addition to the fact that 
our policies will decide the framework of public opinion--some 
people will like them; others will not; perfectly fair--I would 
also argue that, as a core view of the success of the United 
States over the past 50 years, I hold to the notion that we 
have been successful because we appear to operate within 
international norms. We appeared to try to legitimize our 
efforts by going through the United Nations, involving 
international instances, building coalitions. And while not 
everybody agreed with what we were doing or what we stood for 
on a given case, a given instance, the fact that the United 
States attempted to subject itself to an international--a 
framework of international norms, improved our policy. To take 
the opposite view that our national interests will override an 
international consensus, then I think we open ourselves to huge 
doubts about the legitimacy of American efforts.
    It does not mean that the United States shouldn't defend 
its most essential interests--of course we should--but to, as a 
general practice, try to accommodate the broader international 
concerns.
    The second comment I would make is that one of the reasons 
we'll never be fully understood is that people approach 
problems with different assumptions. And if you simply talk 
about the conclusions, you won't--in the Arab world, there is a 
deeply held assumption that the United States wishes to weaken 
the Arab world. We weakened it most recently by invading Iraq. 
We weaken it by undermining the oil industry. Whatever. There 
are many assumptions about malign American purposes.
    To come back to a point Geoff Kemp made, we've got to have 
people who know those assumptions and, therefore, can engage in 
the dialog. And that means a serious strengthening of our 
information services.
    In the U.S. Government, over the past 10, 15 years, we have 
reduced the effectiveness--the numbers, the standing of 
officers who are skilled in international communications and--
from a high point in the immediate postwar period to a low 
point in the 1990s. I think, in a world in which we've 
discovered is much hostility and even questioning of American 
policies and purposes, part of the work this committee can 
contribute to is to making certain our people speak Arabic, 
know the culture of the region, but also are skilled in the 
practice of understanding arguments, understanding assumptions, 
and, therefore, being able to debate the conclusions on the 
same ground that the arguments are being advanced.
    Dr. Kemp. Mr. Chairman, I have just two points I'd like to 
add to what my colleagues have said.
    The Pew report that you cited is, of course, 
extraordinarily troubling. But, you know, it's just the last of 
many troubling opinion polls we've seen out of the region over 
the last 10, 15 years.
    There's a certain ambiguity here, because I think that both 
that poll and what you actually see in the Middle East reflects 
also another component that we should not, in any way, 
minimize. That is to say that while public opinion is very, 
very critical of the behavior of the U.S. Government, there are 
still huge, long lines outside every American embassy in the 
Middle East, of people trying to get visas to come to this 
country. And so you have the anomaly of fortress America in 
downtown Cairo, where Frank was, or out in the boondocks, as in 
Kuwait. But, still, the people want to come here. So there's 
this ambiguity about America and American policy.
    And I think, on the policy issue, I'd just like to 
reiterate what my colleague said, that, you know, like it or 
not, the Palestine issue is a touchstone for how we are seen to 
be handling the broader issue of the region. And it's obviously 
not the case that this is the only problem to resolve, after 
Iraq. But were we to succeed, were the President to succeed in 
bringing about a solution to the Arab-Israeli conflict, this, I 
think, would have enormous momentum for the good.
    And, I must say, I was in Europe last week when the 
President went to Sharm el-Sheikh and Aqaba, and it was 
remarkable how impressed people were that he did seem, at last, 
to be taking this burden on himself, rather than deferring to 
Secretary Powell. And I think that if we get over this 
immediate crisis we're in right now, and the administration 
takes the plunge, then I think, ultimately, it could be the 
best public diplomacy we could have, other than, of course, a 
success in Baghdad.
    The Chairman. Sort of doubling back to one of the purposes 
of the hearing, at least anecdotally, observers of the 
President's visit with the Arab leaders noted that, within the 
Arab leadership group meeting with the President, there were 
very great strains. Not everybody likes each other. As a matter 
of fact, there are a number of problems that, leaving aside the 
Israelis and Palestine, per evidence in the meeting, come back 
to some of the things we're talking about today. What if some 
degree of democracy--human rights, freedom--occurred in Iraq in 
this area in which there are some elements of that elsewhere? 
It's not totally devoid of those thoughts. At the same time, a 
good number of regimes that do not manifest this, that 
apparently have a lot of unhappy young people, in particular, 
who feel really thwarted at every turn by what they feel are 
elderly types, still abound. What does this mean, in terms of 
the dynamics? Even as we are busy talking about the Arab world, 
the fact is, this is made up, as all of you pointed out today. 
There are very sophisticated situations in different countries 
at different degrees of development.
    Well, you argue as the devil's advocate that the Iranians 
see Saddam as certainly a bad ruler, but, nevertheless, as one 
who brought stability. It's much the view, for instance, of the 
Chinese with regard to the North Korean regime. One reason to 
provide a lot of fuel and food and not to withdraw them or use 
that leverage is the fear that somehow the regime might 
collapse and North Koreans might spill over into China, and 
other bad things might occur. The evaluations are often made on 
the basis of stability. That is, nothing happens. There's a 
containment of the situation.
    Now we've upset that. And, at least for the moment, it 
would appear that something different is going to emerge in 
Iraq that might offer hope, in the best instance, to the best 
instincts we would hope of people who might seek freedom.
    How do we then work with our old friends in Saudi Arabia, 
in Egypt, to name two that are good friends, to understand 
what's occurring before strange things happen in those 
countries? As the power that can send people everywhere, can we 
handle all of the problems that we are called upon to handle? 
Do we face a new set of difficulties, not of our own making, 
shall we say?
    Ambassador Wisner. Senator, really extraordinarily 
important questions. I was very troubled, as the debate took 
place leading up to the war in Iraq, that somehow, as part of 
our justifications and public dialog, there were arguments 
being advanced that democracy could be forced down the throat 
of Iraq by Americans. I didn't believe it then; I don't believe 
it now.
    I also don't believe that democracy can be exported, either 
from this country to the rest of the Arab world, certainly not 
under pressure, not to be seen to be coming out under pressure.
    That said, Iraq does give us a terrific opportunity, if we 
get it right, to build on some of the liberal traditions that 
have existed in Iraq, to have a coalescence of the communities 
where there are incentives that bring them together. All of 
these will send powerful signals.
    But the Arab world, much like the Muslim world, each 
country sees its own dilemmas in its own ways. And people are 
at various different ends of the world of evolution. A society 
like Egypt is extremely sophisticated, has long experience with 
political institutions. In the gulf, the experience is much 
more recent, merging from tribal societies to modern societies 
within one generation.
    One must take into account, obviously, these regional 
differences. But I believe what happens in Iraq will send a 
very powerful signal, and working for the long-term success of 
democracy in Iraq is the right American objective.
    Second, that our own dialog, diplomatic dialog, with other 
nations in the region, including two of the governments that I 
believe are key pillars of America's presence in the region, 
Saudi Arabia and Egypt, that we care and listen and watch how 
they are evolving, how they're taking public opinion into 
account. Very important.
    I believe our explicit work has to be discrete, respectful, 
and work to strengthen institutions in these societies in 
Egypt, where you and I met on many occasions. The United States 
can do a lot associating itself with the education, the press, 
the judicial institutions.
    Egypt is changing. All of the Middle East is changing. Our 
objective should be to associate ourselves with change and to 
not appear to be imposing the pace or content of change, but 
nurturing it and furthering it along, and, at the same time, 
creating the right image about the United States, addressing 
issues that matter hugely to people in the Middle East. The 
involvement in the peace process, as Geoff has just 
underscored, is critical to our overall image and ability to 
promote our thoughts about democratic institutions, a 
democratic future, and free markets.
    The Chairman. Ambassador Galbraith, I'd like to ask, 
because you were in Baghdad, as you pointed out, fairly rapidly 
after the military conflict ended. If a member of this 
committee, or a delegation of Senators, were to go to Baghdad 
tomorrow, what should we ask for? What would be the most useful 
intervention on our part? Obviously, the intervention of 
Senators in Baghdad, at this particular point, is an imposition 
upon everybody. They're busy, and they have lots of things to 
do. On the other hand, it is important for us to have some 
better understanding and to raise the right questions or offer 
the right comments of support. Can you offer any counsel or 
advice to Senators of this committee who might be on such a 
mission?
    Ambassador Galbraith. Travel to Iraq would be extremely 
useful for the Senators of this committee and, if I might add, 
also the staff. The question is, what is it that you'll be able 
to do once you get there? And if the kind of restrictions that 
have existed on congressional travel remain, then I would have 
some doubts about the wisdom of going from a substantive 
perspective. With current restrictions, you could have photo 
op, and a chance to cheer the troops, which is very important 
to do, but it wouldn't give you a good sense of the scene in 
Baghdad.
    My sense of the security situation in Baghdad, during the 
day, is that it is a place you can go around. And while I was 
there, I traveled around without any protection, sometimes by 
myself. I went into buildings, as they were being looted such 
as the Foreign Ministry. Frankly, the looters were very 
friendly.
    They lit treaties to show me around, because it was dark. 
There was no electricity.
    Now, I'm not sure that a senatorial delegation could quite 
do that, but I think one absolutely would have to insist upon 
being able to get around. I think you should look at the 
physical destruction and make some of your own decisions about 
some of these issues that I've raised.
    I would certainly want to talk to the political leadership, 
the former exiles who have established offices there. It is 
very interesting to see how people are actually holding court, 
who's coming, and the kind of political dialog that's being 
undertaken.
    Ideally, I would urge you to see some other parts of the 
country. I think it would be very useful to do what Senator 
Biden and Senator Hagel did, and go up to Kurdistan and meet 
with the parliament and get a sense of what is possible. Now, 
they certainly have not created a perfect democracy, by any 
means, but they have created, against enormous odds, a 
pluralistic society, and they did actually manage to hold 
completely fair elections. They had the unfortunate problem 
that the elections produced a tie, and you know what happened 
with a tie in this country; imagine if that happens in your 
first election. And then I would also want to go to Karbala or 
Najaf and talk to some of the clerics.
    But it is my view that you could carry out such an 
itinerary with a high degree of confidence in the security.
    The Chairman. I thank you for those insights.
    Let me note that the distinguished ranking member has just 
returned, and I want to recognize him, as I've had the monopoly 
of all of you for much more than my allotted 10 minutes.
    Let me just comment to the ranking member, after you've 
raised questions and answers, it would be my intent to adjourn 
the hearing. I've had a good opportunity. I wanted to make 
certain that you do, too.
    Senator Biden. Well, thank you very much, Mr. Chairman.
    I'm sorry I got--there is a dangerous no-man's land for 
United States Senators, and that's between the floor and the 
elevators, and I was importuned by a number of reporters on 
matters that were beyond my competence to respond to, and the 
more I told them I didn't know, the more they'd ask questions 
and believed I knew something.
    At any rate, if the chairman went to any of these issues, 
please just let me know, and I will literally read the record.
    With regard to the role of the United Nations, if you can, 
in as specific terms as you can, had you Ambassador Bremer's 
job right now, you're sitting in his spot, what would you 
recommend, specifically to the President, about further U.N. 
involvement, if you would? If you would. Anyone.
    Ambassador Galbraith. My own preference would actually have 
been to put all of this under a U.N. mandate. But beyond what 
was in the resolution I think there are some discrete things 
that the United Nations can do. The most important, in my view, 
relates to the area of justice. This really requires 
impartiality, and I think that is much more likely to come from 
the United Nations or be seen as coming from the United 
Nations.
    Senator Biden. When you say ``justice,'' you mean a 
judicial system?
    Ambassador Galbraith. I mean two things. One of them is the 
judicial system. So I would bring in the United Nations and 
give them the task of vetting judges. In fact, I think, 
basically, you have to get rid of all the old Iraqi judges. 
They administered injustice for 35 years, and I don't think you 
can credibly have a new beginning with people who have done 
that.
    The U.N. could undertake a process of identifying and 
recruiting new judges. There are a lot of capable Iraqi 
lawyers, so I think it is doable. I would also let the United 
Nations do the documentation of the crimes that took place 
under the Ba'ath regime. And, ideally I would have an 
international criminal tribunal to try the leading culprits of 
the old regime. I know that this administration is not keen on 
such things, but it is such an open and shut case of massive 
criminal conduct that we really ought to take it to the entire 
world. We have a number of the senior leaders in custody and we 
ought to try them in Iraq before a U.N.-mandated tribunal.
    Incidentally, people complain about these trials as being 
long and slow. Indeed I may be testifying later this month in 
the Milosevic trial, which has gone on for more than a year. 
The fact is that genocide is a very complicated crime, and it's 
not like a discrete murder case. In a routine murder case you 
may have a perpetrator, a victim, a handful of witnesses and 
some gunpowder. In these international tribunals, you have to 
prove the murder of hundreds of thousands of people. That is a 
very big task, and it's no surprise that this takes a long 
period of time. But I think it is important to do that, and 
that is a role I would also assign to the United Nations.
    There are other things that the United Nations is doing in 
Iraq, in the development area and the humanitarian assistance. 
Obviously, those kinds of activities should continue. And I 
would urge the President and Ambassador Bremer, to take 
advantage of the very special skills of Sergio Vieira de Mello. 
It was the United States who wanted him in that job. He will be 
very good at helping to forge a political consensus. This is 
what he's done his entire career.
    Senator Biden. Yes, let me stop--and I'm going to ask the 
others to come in, too, but let me specifically ask you about 
the last point.
    ``Forging a political consensus'' really means being part 
of forging a new government in Iraq, an Iraqi Government. Now, 
how does, in the present circumstance, a U.N. representative--
within the constraints of the resolution that he's operating 
under now, how does he or any other U.N. personnel get involved 
in that process?
    One of the things that I have believed is--for a long 
time--and I am happily disabused of the notion if it's 
warranted that I be disabused of it--is that there are 
conflicting, genuinely conflicting, interests here, on our 
part. One is to get the heck out as quick as we can, in terms 
of being the face of the Iraqi Government. And, two, is making 
sure we don't move so fast that we end up leaving a government 
in place that does not have any reasonable prospect of 
developing into a quasi-democratic institution.
    We have several models. We have the model we tried to 
pursue in Bosnia, which you are extensively familiar with, 
where, when we went to elections quickly, in my view, we 
guaranteed that the most extreme nationalists of each of the 
competing factions would become the representative of that 
portion of the population. No time to develop any new or more 
moderate blood, if you will.
    We have an example in Kosovo, and we have an example in 
Afghanistan, where the world community, under our leadership, 
met in Germany with a group of Afghanis, somewhat boisterous 
and somewhat contentious, but it resulted in a consensus pick 
by the vast majority, at that moment, of the varying factions 
within Afghanistan, of a single man, who was going to 
transition to a pluralistic government, in time.
    I don't know what the plan here is. I don't know what the 
mechanism we're looking at here is. And so when you say to me 
that we get the diplomatic skills and the negotiating skills of 
a particularly talented diplomat assigned by the United Nations 
to this process, how does he, or anyone else, get in the game? 
Should he be sitting in the room with Bremer? Should they be 
now talking about what is the outlying of--and the steps to be 
taken to transition to an Iraqi control of Iraq? I mean, how 
does this, in mechanical ways, happen?
    Ambassador Galbraith. These are extremely good questions. I 
think that Sergio Vieira de Mello probably should be playing a 
supporting role to what Bremer is doing, and I think it's very 
likely that that is what he is doing. In some instances, he 
definitely should be in the room. In other instances, he ought 
to be tag-teaming with Bremer, meeting with the different 
Iraqis, helping in this process of trying to find a consensus.
    You've touched on something that I should have talked about 
which actually is terribly important, that is, What is the exit 
strategy? My view of the process is, first to establish a 
provisional government as quickly as possible--accepting your 
point of, not wanting to do it too quickly and not wait too 
long either--but establish a provisional government as quickly 
as possible by some kind of loya-jirga process, which I think 
actually worked rather well in Afghanistan, and then move to 
elections. And here's another role, I think, for the United 
Nations.
    The United Nations has a lot of experience in conducting 
elections in post-conflict situations and, I think, does it 
extremely well. And, again, I think the result is likely to be 
more widely accepted if done by the United Nations.
    I think the analogy to Bosnia is not a good one----
    Senator Biden. I'm not suggesting that any of these are 
analogous.
    Ambassador Galbraith. No, but----
    Senator Biden. I'm just saying the----
    Ambassador Galbraith [continuing]. But this is raised 
continuously.
    The problem in Bosnia was that--it was the product, as you 
know, of a peace treaty in which the power, in November and 
December 1995, still rested with Tudjman, Milosevic, and the 
parties in Bosnia. NATO and the High Representative came in 
and, over time, increased their power. And, in that context, I 
agree that it probably would have been better for the elections 
to have been delayed until more had been done including the 
arrest of some of the war criminals.
    This is a completely different situation. The coalition has 
all the power, and is being blamed for the shortcomings, some 
of which are areas where we could do better, and some of which 
are inevitable. Turning this over to Iraqis in some kind of 
coalition government does make sense, incidentally. The Iraqi's 
are looking at a Bosnia type of model with a rotating 
leadership in which the three top positions are held by a Kurd, 
Shi'ite, and Sunni.
    The one caveat I would have is that this provisional 
government may have a rough time, and may become quite 
unpopular. When the elections are held, the more extreme 
elements, and particularly the religious parties, may campaign 
against that government because it hasn't delivered. And even 
if we had done everything right, it was not going to be able to 
deliver. People have very unrealistic expectations in these 
circumstances, but I don't know how you solve that problem. I 
think the worst alternative is for the United States to 
continue to govern Iraq.
    Senator Biden. Gentlemen, would you each comment on that 
for me?
    Dr. Kemp. I have very little to add to what Peter said, and 
it's not something I'm intimately familiar with. I would only 
suggest that an area where perhaps an international hand, the 
U.N. or otherwise, might be advisable at some point concerns, 
you know, the central issue of the oil industry and who is 
going to control it and how is the money going to flow, because 
that is the issue that all the neighborhood is worried about, 
and there are all these conspiracy theories that that was the 
reason we went there. And, ultimately, how the oil wealth of 
Iraq is distributed will make or break all these proposals for 
federation or confederation.
    So I would argue that some U.N. involvement in the 
management of the financing and the oil industry is going to be 
important to convince the donors we want to bring into Iraq 
from around the world that this is an above-board operation and 
that they have nothing to worry about and that there is 
transparency.
    Senator Biden. Ambassador Wisner.
    Ambassador Wisner. Senator, I think the main points have 
been made.
    Let me go back to a remark of Peter's and focus on it for 
just a moment. I think the starting point is to revise our 
policy a bit. Of course the coalition is responsible right now 
for re-establishing law and order, for setting in place the 
essential feeding and infrastructure services, getting the oil 
back up and running. But I'd like to think that it would become 
the policy of the United States to shift the visible 
responsibility toward the United Nations, and that means, at 
the moment, that Sergio de Mello, who is a terrifically 
capable, smart, man, would begin, in very close consultations 
with Mr. Bremer, working through the steps that have to be 
taken in the Iraqi political process and assuming a greater and 
greater responsibility, to the point that when you move from an 
advisory council to an interim government, from an interim 
government to a constituent assembly, the U.N. umbrella over 
the operation becomes more and more visible.
    I argue that because a U.N. umbrella, a U.N. tone, will 
bring, in fact, the practical advantages that Mr. Galbraith 
talked about, the practical advantages of real experience. But, 
more importantly, it legitimizes the political process in the 
minds of Iraqis, in the eyes of Arabs, and around the world. It 
allows the United States to play its role behind the scene.
    We are going to have to be very careful in Iraq that the 
wrong people don't emerge in the political process, people we 
can't deal with, people who will subvert the very principles 
that we believe in and went to war for. But it is better if we 
exercise that veto behind the stage, rather than on stage. 
Having the U.N. out front is exactly where we ought to be.
    So I would argue, basic principle, begin to shift the 
responsibility for the political development away from a 
coalition and toward a U.N. responsibility.
    Senator Biden. Well, my observation is there are only two 
places in Iraq where there has been, over the last decade, an 
ability for there to develop any political leadership. One has 
been in the Kurdish-controlled areas, and Senator Hagel and I 
spent some time up there. And it was remarkable, the progress 
they made under the no-fly zone, with revenues, let alone the 
number of hospitals, schools, et cetera--I mean, literally, the 
quality of life--and the mosques and the religious leaders 
within the mosques.
    And so I don't know any other place in Iraq where you're 
likely to find, in the near term, meaning months, indigenous 
groups, individuals, or leadership, beginning to flourish or 
show the ability to participate. And it seems to me that--well, 
I shouldn't--that's my concern about how quickly we transition.
    And the second concern is yours, Peter, that unless we 
have, in the meantime, in my view, established stability, 
order, security, gotten the major infrastructure up and running 
and functioning, that whatever that transition--whatever 
government you want to call it--when it comes time for 
elections, is going to be the whipping boy for the more radical 
elements within the country, establishing the very state that 
Ambassador Wisner is, by implication, concerned about. We don't 
want the wrong people, quote, unquote, end up running Iraq. 
We'll not let that happen, and all that we will be viewed as is 
having illegitimately dethroned the process that we were 
essentially attempting to establish in the first place.
    So it leads me to this question. We ought to be able to 
walk and chew gum at the same time; I understand that; I'm not 
suggesting that we can only do one thing at a time--but is the 
most urgent need establishing order--safe streets, the ability 
of people--I am told that Iraqi police officers will not show 
up at their police stations on duty because they are fearful 
that they will be killed on the way, that they will literally--
literally--there is such a lack of sense of safety on the 
street that even those police officers that we're trying to 
develop and bring back are reluctant to go on post.
    And as part of that question, how important is it that we 
produce the body? How important is it that Saddam Hussein be 
determined, with certainty, to be dead or alive in captivity? 
Because there is a stretch of a parallel, Peter. As long as 
Kharijites, as long as those boys were wandering the 
countryside, in Bosnia, in Srpska, the ability of actually 
being able to get anything really done was, I think, 
nonexistent.
    I realize it's not the same. But if you read the press 
accounts of folks on the ground in Iraq, like you were for 3 
weeks, the ghost of Saddam Hussein seems to loom very large, in 
terms of the chances people are willing to take to begin to 
build this new Iraq. And you have Chalabi before your 
organization, Frank, up in New York--I think it was in New 
York; didn't he speak to the Council?--saying that he's sure 
Saddam Hussein is not only alive and well, but that he is 
orchestrating and paying for and coordinating these attacks on 
American soldiers and the killings that are taking place. And, 
if I'm not mistaken, I thought I heard him say, in an interview 
yesterday, that he believed that Saddam had this plan in place 
from the beginning, that it was not--there was a decided 
decision not to resist, in any meaningful way, quote, the 
invasion, because he couldn't, and so there was already this 
plan--was made at the same time to be able to engage in, 
essentially, guerrilla warfare once we were in occupation.
    Now, I don't know if that's urban lore or whether it's 
real, but how much of that is absorbed in Iraq by Iraqis as 
fact? And how does it affect conduct or participation?
    Ambassador Galbraith. Well, you raise a lot of issues.
    First, I'd like to just come to the point you made about 
the two sources of leadership. And you're completely right. 
There are the Kurds, and there are the mosques. It was very 
apparent to me, going to what was Saddam City, now al-Sadr City 
and to Karbala, within a week of the U.S. takeover, that the 
mosques had filled the gap. There were armed men on the streets 
providing security in Karbala. They were picking up the 
garbage. And they were restructuring the school curriculum.
    The trouble is if we delay a long time in setting up a 
provisional Iraqi government, will another leadership, an 
alternative leadership, develop? I'm not sure that that's the 
case. And there is the problem, if we go with our favorite 
exiles, some of whom--they're talented people; they shouldn't 
be belittled--and, incidentally, they stayed with this----
    Senator Biden. I am not belittling them.
    Ambassador Galbraith. But you've seen the kind of 
suggestion that Chalabi is a Saville Row revolutionary. A lot 
of these people took significant personal risks, and they 
pursued a cause when it basically seemed hopeless. But there is 
the question, if you install a provisional government in Iraq 
will that strengthen a radical alternative? These concerns are 
some of the reasons why, in fact, a federal system is very much 
in our interest. If certain parts of Iraq become more 
radicalized--such as the south--there will be other parts that 
remain in the hands of secular moderates. Kurdistan is clearly 
going to be a moderate, secular, very pro-American region. It's 
probably the most pro-American place in the world.
    On the question of the body, I think, there's a difference 
between the Karadzic/Mladic case and the Saddam case. Karadzic 
and Mladic were genuine heros to a real constituency in the 
Bosnian Serb Republic and, indeed, in Serbia, itself. I think 
Saddam is much more a discredited figure, and this comes to the 
issue Senator Lugar had raised, I think in your absence, about 
public diplomacy. This is another reason why it's so important 
that we get the record out about this regime, on the killings 
and the corruption--because I think that will serve to further 
undermine Saddam's support.
    Senator Biden. If I can refine my point slightly, I did not 
believe, and do not believe, that Saddam Hussein has a 
constituency. I think Saddam Hussein is mortally feared by all 
constituencies. And so my question really was, absent producing 
the body, and the urban lore that he's alive and well and 
coordinating attacks, does that prevent people who disliked 
him, hated him, or people who would otherwise be willing to 
cooperate and prepare to transition to a new government, does 
that keep them on the sidelines out of fear that the man's 
coming back?
    Ambassador Galbraith. I think the answer to that, largely, 
is no. I think it has a limited scope in the so-called Sunni/
Arab triangle, you know, the Fallujah, Tikrit, Samarra, some of 
the Sunni areas of Baghdad. But, other than that--and there are 
plenty of people who are coming forward in those areas--but, 
other than that, I think----
    Senator Biden. OK.
    Ambassador Galbraith [continuing]. People accept that he is 
gone. That was clearly true in the initial period, as we were 
advancing toward Baghdad, but I think a lot of that had to do 
with what happened in 1991 and a sense that, ``The United 
States, here it is, it's encouraging us Shi'ites to rebel 
again. Will it let us down again with the horrific 
consequences?'' I think people now understand that Saddam is 
gone and that the U.S. is there.
    Ambassador Wisner. Senator, your first question was, ``Is 
law and order the overriding objective?'' I'd like to argue 
that, bluntly, yes is the answer; but, ``yes, but.'' And that 
is, law and order must be improved--adequate coalition forces 
have got to be available, Iraqis brought into positions of 
security responsibility, intelligence services, the rest--all 
have to be near-term objectives for the coalition.
    At the same time, adequate security is linked to politics. 
To get a political framework in which the component parts of 
Iraq feel that they are going to get a hearing and will be 
responsible, will be consulted, will be contributing to the 
future of their own country, gives the security forces 
legitimacy. We cannot be the government and, therefore, moving 
down the road as fast as circumstances permit to create a 
political authority seems, to me, connected very directly to 
the issue of law and order.
    Second, on the----
    Senator Biden. Was Bremer right in postponing the 
commitment made by Garner about transitioning?
    Ambassador Wisner. In my judgment, he was. But what bothers 
me is that there now is not a view of where we go next and who 
will be involved and what will be the rules of the road. So 
we've ended one--we've talked about a short-term--ended one 
formula, a short-term interim advisory council. But a point I 
tried to make in my opening remarks, the issue of vision, of 
where we're going, so that Iraqis understand what the rules 
will be, that remains to be set out.
    I would add, just quickly, on that point, I'm not totally 
discouraged about the sources of leadership in Iraq. It's not 
just Kurds and mosques. Iraq is a remarkable country. The depth 
of education exceeded that virtually in any other Arab country. 
There are substantial numbers of high-quality academics, 
professionals, there are people who performed ably in the civil 
service. And then there are the traditional elements of Iraqi 
power, the tribal structures, not all of which are necessarily 
corrupt--were necessarily fully corrupted by the Ba'ath regime. 
In short, how you bring these constructive elements to the 
table is part of the political process that I would like to see 
the U.N. share in.
    And I'd just add, as well, that if you talk, as I'm sure 
Peter and Geoff have, to Iraqi Shi'a, there are many who say 
they see the importance of dividing the mosque and the state, 
and that there are intellectuals, businessmen, professionals 
who are deeply devout, who could speak on behalf of the mosque, 
but are not, themselves, clerics.
    I think Iraq, properly consulted, brought forward 
carefully, watching who is of real quality and has respect in 
the community, could actually produce a leadership that would 
do credit to it and to our efforts.
    Dr. Kemp. I have very little to add, Senator Biden, except 
to embellish your first point. I mean, I think we all said, in 
different ways, at the beginning of this hearing, that we do 
not want to repeat in Iraq what has happened in Afghanistan. 
And, essentially, if, indeed, President Karzai is still the 
mayor of Kabul, it is because there is not law and order 
outside Kabul, and that, therefore, the security issue, 
obviously, has to be the No. 1 priority. Without security, you 
cannot rebuild infrastructure, and until you really rebuild 
infrastructure, you can't regenerate the economy and get people 
work and jobs and be more content.
    The situation we do not want to be in is, months from now, 
when--if Iraqis are asked, ``Were you better off 6 months ago 
than you are today,'' and they answer in the positive, then we 
will be in trouble, because if you read the press reports, if 
you read an extraordinary report that the International Crisis 
Group issued yesterday about the day-to-day conditions in 
Baghdad as we enter these summer months, it really is, I think, 
quite disturbing. And, therefore, I would say that has to be 
Ambassador Bremer's No. 1 priority.
    Senator Biden. Mr. Chairman, I thank you.
    I have many more questions, but I'll have many more 
opportunities, and I won't trespass on your time anymore. Thank 
you for very, very helpful testimony.
    The Chairman. Thank you, Senator Biden.
    I join you in thanking our witnesses. Each of the papers 
you presented were really very important contributions, and I 
hope that they will have wider circulation than simply the 
testimony for this committee today. We thank you for being so 
forthcoming in your responses, and we look forward to seeing 
you again--if not soon on this issue, on various other areas of 
American foreign policy.
    The hearing is adjourned.
    [Whereupon, at 12:35 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]


</pre></body></html>
